<html>
<title> - HOW EFFECTIVE IS THE SCIENCE AND TECHNOLOGY DIRECTORATE? STAKEHOLDER PERSPECTIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 HOW EFFECTIVE IS THE SCIENCE AND TECHNOLOGY DIRECTORATE? STAKEHOLDER 
                              PERSPECTIVES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 7, 2017

                               __________

                           Serial No. 115-36

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                  

        Available via the World Wide Web: http://www.govinfo.gov

                               __________


                  U.S. GOVERNMENT PUBLISHING OFFICE                    
29-469 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294e5946694a5c5a5d414c4559074a464407">[email&#160;protected]</a> 



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Vacancy
                   Brendan P. Shields, Staff Director
                 Steven S. Giaier, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                
                                ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Martha McSally, Arizona              James R. Langevin, Rhode Island
John H. Rutherford, Florida          Bonnie Watson Coleman, New Jersey
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
           Moira Bergin, Minority Subcommittee Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Timothy Rice, Battalion Chief, Weapons of Mass Destruction 
  Branch Coordinator, City of New York Fire Department:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Dr. Gerald W. Parker, Jr., Associate Dean for Global One Health, 
  College of Veterinary Medicine and Biomedical Sciences, Texas 
  A&M University:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Jake Parker, Director of Government Relations, Security 
  Industry Association:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Reginald Brothers, Principal, The Chertoff Group, LLC, 
  Testifying as Former Under Secretary, Science and Technology 
  Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

 
 HOW EFFECTIVE IS THE SCIENCE AND TECHNOLOGY DIRECTORATE? STAKEHOLDER 
                              PERSPECTIVES

                              ----------                              


                       Tuesday, November 7, 2017

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Daniel M. Donovan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Donovan, Payne, Langevin, and 
Watson Coleman.
    Also present: Representative Jackson Lee.
    Mr. Donovan. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order.
    The subcommittee is meeting today to receive testimony on 
the effectiveness of the Science and Technology Directorate at 
the Department of Homeland Security. I now recognize myself for 
an opening statement.
    I want to welcome our witnesses here today to discuss an 
issue that is important to our homeland security: The role of 
the Science and Technology Directorate within the Department of 
Homeland Security, and the Homeland Security Enterprise. 
Science and Technology, by law, is the primary research and 
development arm of the Department. However, it seems that over 
15 years since its creation, Science and Technology is still 
struggling to fulfill its role within DHS and the Homeland 
Security Enterprise.
    Given the evolving threat we face from terrorist attacks, 
from last week's attack in New York City to powerful hurricanes 
and expansive wildfires, we need to ensure that there is a 
component or office at the Department looking for both the 
short-term and long-term innovative solutions to address the 
challenges the Nation currently faces. By design, this should 
be Science and Technology.
    However, budget constraints and the changes to R&D 
priorities have restricted Science and Technology's abilities 
to meet its mission. The committee has heard concerns about the 
lack of coordination between Science and Technology and other 
DHS components and offices on R&D.
    Additionally, in the past, it was unclear how Science and 
Technology prioritizes its R&D. In 2015, DHS reinstituted the 
Integrated Product Teams Process. These teams, comprised of a 
cross-section of DHS components and offices, identify 
capability gaps which direct Science and Technology research 
and development priorities. This is a step in the right 
direction, but more still needs to be done.
    I am troubled that Science and Technology has repeatedly 
changed its focus, both on whether to focus on short-term 
technology or long-term research on larger unknown threats, and 
whether to deal only with DHS components or external 
stakeholders. This back-and-forth needs to stop, and there 
needs to be a candid conversation on what Science and 
Technology's mission should be. I hope this hearing is just the 
start of these conversations.
    Moving forward, this subcommittee is committed to working 
with all relevant stakeholders as we consider the appropriate 
mission and structure of Science and Technology. While Science 
and Technology has faced constant challenges and obstacles, 
there are some Science and Technology programs that have made a 
positive impact on the Homeland Security Enterprise. The 
National Urban Security Technology Lab, also known as NUSTL, in 
New York City, serves as a Federal resource for first 
responders by supporting the development and testing and 
evaluation of new technology.
    I have had the opportunity to visit NUSTL, and have seen 
first-hand the remarkable resources NUSTL provides for our 
first responders. I was very concerned that the President's 
fiscal year 2018 budget request proposed its closure, in 
addition to the closure of two other DHS labs that focus on 
chemical and biological threats. Now is not the time to be 
cutting Federal resources to counter chemical and biological 
threats and support for our first responders. I am pleased that 
the gentleman from Maryland, Mr. Delaney, and I were able to 
successfully restore funding for these three vital labs during 
the appropriations process on the floor.
    I am looking forward to hearing from our witnesses on the 
current State of Science and Technology and its programs, and 
what more needs to be done to ensure that Science and 
Technology is an effective and efficient partner with first 
responders, academia, and industry, as well as DHS components 
and offices. I look forward to our discussion.
    [The statement of Chairman Donovan follows:]
                Statement of Chairman Daniel M. Donovan
                            November 7, 2017
    I want to welcome our witnesses here today to discuss an issue that 
is important to our homeland security: The role of the Science and 
Technology Directorate (S&T) within the Department of Homeland Security 
and the Homeland Security Enterprise.
    S&T, by law, is the primary research and development (R&D) arm of 
the Department. However, it seems that over 15 years since its 
creation, S&T is still struggling to fulfill its role within DHS and 
the Homeland Security Enterprise.
    Given the evolving threat we face from terrorist attacks, like last 
week's attack in New York City, to powerful hurricanes and expansive 
wildfires, we need to ensure that there is a component or office at the 
Department looking for both the short-term and long-term innovative 
solutions to address the challenges the Nation currently faces. By 
design, this should be S&T.
    However, budget constraints and the changes to R&D priorities have 
restricted S&T abilities to meet its mission. The committee has heard 
concerns about the lack of coordination between S&T and other DHS 
components and offices on R&D. Additionally, in the past, it was 
unclear how S&T prioritized its R&D. In 2015, DHS reinstituted the 
Integrated Product Teams (IPTs) process. These teams, comprised of a 
cross-section of DHS components and offices, identify capability gaps 
which directs S&T R&D priorities. This is a step in the right 
direction, but more still needs to be done.
    I am troubled that S&T has repeatedly changed its focus--both on 
whether to focus on short-term technology transferring or longer-term 
research on larger unknown threats and whether to deal only with DHS 
components or external stakeholders. This back-and-forth needs to stop 
and there needs to be candid conversations on what S&T's mission should 
be. I hope this hearing is just the start of these conversations. 
Moving forward, this subcommittee is committed to working with all 
relevant stakeholders as we consider the appropriate mission and 
structure of S&T.
    While S&T has faced constant challenges and obstacles, there are 
some S&T programs that have made a positive impact on the Homeland 
Security Enterprise.
    The National Urban Security Technology Laboratory (NUSTL), in New 
York City, serves as a Federal resource for first responders by 
supporting the development and testing and evaluation of new 
technology. I've had the opportunity to visit NUSTL and see first-hand 
the remarkable resources NUSTL provides to our first responders. I was 
very concerned that the President's fiscal year 2018 budget request 
proposed its closure in addition to two other DHS labs that focus on 
the chemical and biological threats. Now is not the time to be cutting 
Federal resources to counter chemical and biological threats and 
support for our first responders. I'm pleased that the gentlemen from 
Maryland, Mr. Delaney, and I were able to successfully restore funding 
for these three vital labs during the appropriations process on the 
House floor.
    I'm looking forward to hearing from our witnesses on the current 
state of S&T and its programs and what more needs to be done to ensure 
S&T is an effective and efficient partner with first responders, 
academia, and industry as well as DHS components and offices. I look 
forward to our discussion.

    Mr. Donovan. The Chair now recognizes my friend, the 
gentleman from New Jersey, Mr. Payne, for an opening statement 
that he may have.
    Mr. Payne. Good morning. I want to thank the Chairman for 
holding this Subcommittee on Emergency Preparedness, Response, 
and Communications, first hearing to review the activities of 
the Science and Technology Directorate. I look forward to 
working with S&T and its stakeholders to ensure that components 
of the Department, and their State and local partners have the 
technology they need to do the jobs better and safer.
    I would like to begin, however, by addressing a few matters 
not directly related to today's hearing.
    First, I would like to send my sympathies to those affected 
by the horrific terrorist attack in New York City on Halloween, 
and express my gratitude to the brave firefighters, EMS, and 
law enforcement personnel who responded.
    I would also like to join the people of Sutherland Springs, 
Texas in mourning the 26 people murdered for being at the wrong 
place at the wrong time--in this case, at church on Sunday. To 
those grieving loved ones, we pray for your strength in the 
difficult days that are to come.
    To those fed up with Members of Congress sending their 
thoughts and prayers to victims of mass shootings every time it 
happens, and then refusing to do anything to stop it, I stand 
with you as well. Instead of letting senseless actions take 
place, it is long overdue that we do what makes the most sense 
to significantly change, or to stop this from ever happening 
again.
    Finally, I would like to express my disappointment that 
last week's full committee hearing with the FEMA administrator 
and the mayor of San Juan was postponed, and join full 
committee Ranking Member Thompson in asking that it be 
rescheduled as soon as possible. As I said at our last hearing, 
our National response doctrine is not working for the people of 
Puerto Rico and the U.S. Virgin Islands, and we need to figure 
out what we can do to expedite the response and recovery 
efforts there. They are American citizens as well.
    I have heard first-hand from citizens attempting to get 
goods to struggling family members back in Puerto Rico, and 
finding unsurmountable financial obstacles at every single 
turn. We must do better, and not tomorrow--right now.
    Returning to the subject of today's hearing, one thing that 
these recent tragedies have taught us is that the threats we 
face, from natural disasters to man-made attacks, are 
continuing to evolve. From extreme weather events becoming more 
frequent and more severe, to terrorists weaponizing cars and 
trucks, to bad actors wreaking havoc on soft targets, the kind 
of threats facing our country demands Science and Technology 
Directorate that is sufficiently innovative and dynamic to be 
responsive to the demands of the ever-changing threat 
landscape.
    I want to thank all the witnesses for being here today, 
particularly Dr. Reggie Brothers, the former under secretary of 
science and technology. During the 3 years he spent leading 
S&T, Dr. Brothers focused on cultivating relationships with the 
Homeland Security industrial base to better leverage off-the-
shelf technologies, coordinating research development 
priorities across the Department, and launching programs to 
attract business to work with S&T by streamlining the 
bureaucratic processes.
    Dr. Brothers navigated tight budgets and organizational 
challenges within DHS to create incentives for private-sector 
engagement, and did so while working to overcome long-held 
industry concerns that S&T did not have the budget or clout 
within the Department to guarantee a market for homeland 
security solutions.
    Although S&T matured under Dr. Brothers' leadership, it 
continues to face budget challenges, struggles to gain the 
confidence of the private-sector partners, and is involved in 
large DHS reorganizations of certain chemical, biological, and 
radiological and nuclear counterterrorism activities.
    Now that Dr. Brothers is a free agent, no longer bound by 
OMB, I will be interested in his candid observations on these 
issues, and how the committee can help bolster S&T credibility 
as the research and development hub that drives acquisition 
decisions in the Department.
    With that, I look forward to the witnesses' testimony, and 
I yield back the balance of my time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                            November 7, 2017
    I look forward to working with S&T and its stakeholders to ensure 
that components of the Department and their State and local partners 
have the technology they need to do their jobs better and safer.
    I would like to begin, however, by addressing a few matters not 
directly related to today's hearing.
    First, I would like to send my sympathies to those affected by the 
horrific terrorist attack in New York City on Halloween and express my 
gratitude to the brave firefighters, EMS, and law enforcement personnel 
who responded.
    I would also like to join the people of Sutherland Springs, Texas 
in mourning the 26 people murdered for being at the place at the wrong 
time--in this case, at church on Sunday.
    To those grieving loves ones, we pray for your strength in the 
difficult days that are to come.
    And to those fed up with Members of Congress sending their thoughts 
and prayers to the victims of the mass shootings every time it happens 
and then refusing to do anything to stop it, I stand with you. Instead 
of letting senseless actions take place, it is long overdue that we do 
what makes the most sense and take significant action to stop this from 
ever happening again.
    Finally, I would like to express my disappointment that last week's 
full committee hearing with the FEMA administrator and the mayor of San 
Juan was postponed, and join full committee Ranking Member Thompson in 
asking that it be rescheduled as soon as possible.
    As I said at our last hearing, our National response doctrine is 
not working for the people of Puerto Rico and the U.S. Virgin Islands, 
and we need to figure out what we can do to expedite the response and 
recovery efforts there.
    I have heard, first-hand, from citizens attempting to get goods to 
struggling family members back in Puerto Rico and find unsurmountable 
financial obstacles at every single turn. We must do better and not 
tomorrow, right now.
    Returning to the subject of today's hearing, one thing these recent 
tragedies have taught us is that the threats we face--from natural 
disasters to man-made attacks--are continuing to evolve.
    From extreme weather events becoming more frequent and more severe, 
to terrorists weaponizing cars and trucks, to bad actors wreaking havoc 
on soft targets, the kind of threats facing our country demands a 
Science and Technology Directorate that is sufficiently innovative and 
dynamic to be responsive to the demands of an ever-changing threat 
landscape.
    I want to thank all of the witnesses for being here today, 
particularly Dr. Reggie Brothers, the former under secretary for 
science and technology.
    During the 3 years he spent leading S&T, Dr. Brothers focused on 
cultivating relationships with the Homeland Security Industrial Base to 
better leverage off-the-shelf technologies, coordinating research and 
development priorities across the Department, and launching programs to 
attract businesses to work with S&T by streamlining bureaucratic 
processes.
    Dr. Brothers navigated tight budgets and organizational challenges 
within DHS to create incentives for private-sector engagement and did 
so while working to overcome long-held industry concerns that S&T did 
not have the budget or clout within the Department to guarantee a 
market for homeland security solutions.
    Although S&T matured under Dr. Brothers' leadership, it continues 
to face budget challenges, struggles to gain the confidence of private-
sector partners, and is involved in a large DHS reorganization of 
certain Chemical, Biological, Radiological, and Nuclear 
counterterrorism activities.
    Now that Dr. Brothers is a free agent, no longer bound by OMB, I 
will be interested in his candid observations on these issues and how 
the committee can help bolster S&T's credibility as the research and 
development hub that drives acquisition decisions in the Department.

    Mr. Donovan. The gentleman yields back. I thank him for his 
statement.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            November 7, 2017
    I want to send my condolences to the families affected by last 
week's tragic terrorist attack in New York City and to thank the first 
responders for their heroic efforts.
    I also want to send my thoughts and prayers to the families of 
those killed at the First Baptist Church in Sutherland Springs, Texas 
on Sunday. Over the past 5 years, we have seen mass killings at an 
elementary school, a movie theater, a work place, a night club, a 
college campus, and a music festival.
    No community is immune from the indiscriminate pain that mass 
shootings inflict. It is time for Republican leadership to put aside 
politics and take meaningful steps to ensure that this Nation`s gun 
laws work to protect our citizens and law enforcement.
    Turning to the subject of today's hearing, I am pleased that this 
subcommittee is continuing the committee's efforts to help S&T mature 
into a dynamic research and development organization capable of meeting 
the evolving needs of the Homeland Security Enterprise.
    When the committee last held a hearing on the Science and 
Technology Directorate, I raised concerns about the lack of a unified 
DHS policy defining research and development priorities, stakeholder 
engagement processes, and on-going budget challenges.
    I am pleased that the former under secretary for science and 
technology, Dr. Reggie Brothers, is here today to talk about what he 
did to tackle those challenges.
    From identifying DHS's Visionary Goals and establishing the 
Integrated Product Team process to launching the Homeland Security 
Innovation Program, Dr. Brothers provided clarity to S&T's long-term 
priorities, improved the coordination of research and development 
activities, and attracted new industry to the homeland security space.
    I commend Dr. Brothers for his efforts to leave S&T a better 
organization than it was when he found it.
    That said, there are on-going challenges undermining S&T's 
potential. First, S&T's budget is not what it should be, and the Trump 
administration's fiscal year budget request sought irresponsible cuts 
that would have cut into the bone of S&T's activities.
    Although I am pleased that some of the funding was restored in the 
House spending measure, I remain concerned that research and 
development of security technologies is not a top priority of the Trump 
administration.
    Second, Congress has failed to enact legislation to clarify S&T's 
mission and authorities. Despite this committee's efforts to address 
long-standing challenges at S&T, our Senate counterparts have so far 
refused to act. I hope for a different outcome this Congress.
    Last, I am not confident we are fully leveraging the expertise of 
all of the colleges and universities that are capable of contributing 
in this space, and I hope to learn more about how S&T can better work 
with academic institutions.
    Before I close, I want to echo Ranking Member Payne's comments 
regarding the need to reschedule the full committee hearing on the 
Federal Emergency Management Agency's preparedness and response 
capabilities as soon as possible.
    The Federal response to the devastation caused by hurricanes in 
Puerto Rico and the U.S. Virgin Islands is not what it should be, and 
American citizens are suffering as a result. If we can put a man on the 
moon and bring him back, surely we can turn the power back on and 
provide reliable access to clean water within 7 weeks.

    Mr. Donovan. We are pleased to have a very distinguished 
panel before us today on this important topic, and I assure you 
all that your testimony is very important to us. This 
subcommittee has used testimony in every hearing that we have 
conducted in the last 2\1/2\ years to come up with some 
results, so your efforts here today will be taken into 
consideration, and a product will be developed from them.
    Chief Timothy Rice serves as the weapons of mass 
destruction branch coordinator for the New York City Fire 
Department. He currently serves on New York City's Radiological 
Response and Recovery Committee, and New York City BioWatch 
Stakeholders Working Group.
    Dr. Gerald Parker, Jr. is the associate dean for Global One 
Health at the College of Veterinary Medicine and Biomedical 
Sciences, and campus director for Global One Health at Texas 
A&M University. Dr. Parker also serves on several advisory 
boards, including the Homeland Security Science and Technology 
Advisory Committee, and Biodefense Blue Ribbon Panel.
    Mr. Jacob Parker is the director of government relations 
for the Security Industries Association, and leads the 
development of the association's legislative and regulatory 
programs. Before coming to SIA, Mr. Parker served for more than 
a decade on Capitol Hill, covering homeland security, defense, 
foreign policy and other issues.
    Dr. Reginald Brothers served as the under secretary for 
science and technology from April 2014 to January 2017. Prior 
to leading S&T, Dr. Brothers served in the U.S. Department of 
Defense's Office of the Assistant Secretary for Defense for 
Research and Engineering as the deputy assistant secretary of 
defense for research. In this position, he was responsible for 
policy and oversight of the Department's science and technology 
programs, from basic research through the advanced technology 
development.
    The witnesses' full statements will appear on the record, 
and the Chair now recognizes Chief Rice for 5 minutes.

  STATEMENT OF TIMOTHY RICE, BATTALION CHIEF, WEAPONS OF MASS 
     DESTRUCTION BRANCH COORDINATOR, CITY OF NEW YORK FIRE 
                           DEPARTMENT

    Mr. Rice. Good morning, Chairman Donovan, Ranking Member 
Payne, and Members of the Subcommittee on Emergency 
Preparedness, Response, and Communications. My name is 
Battalion Chief Timothy Rice, and I am the weapons of mass 
destruction branch coordinator for the New York City Fire 
Department. Thank you for the opportunity to discuss the 
relationship between the FDNY and the Department of Homeland 
Security Science and Technology Directorate.
    In May 2001, FDNY's chief of Hazardous Materials 
Operations, Jack Fanning, appeared and testified before 
Congress on the topic of Government capabilities against 
terrorism. Chief Fanning was one of the firefighters who 
responded to the World Trade Center bombing in 1993. Beginning 
with that attack, the role of the fire service began to shift 
into the area of disaster preparedness and responding to acts 
of terrorism. In his testimony, Chief Fanning described this 
shift, and he detailed some of the plans and coordination that 
the FDNY and Federal partners were undertaking as a result. He 
made it clear that those efforts were the tip of the iceberg, 
and that much work remained to be done.
    I have seen the value of S&T in my own career. As a young 
firefighter in Washington Heights, I remember our fires had a 
radiation survey meter. It was kept in the office under the 
captain's bunk, and we were not sure quite how to use it. 
However, today we have radiation equipment on every apparatus, 
and every firefighter carries not just the equipment, but the 
competency to employ it.
    As the range of threats against New Yorkers has grown and 
the risk of terror incidents broadens, the department continues 
to adapt. We confront a wide variety of challenges beyond the 
traditional view of firefighters running into burning 
buildings. As Chief Fanning put it in 2001, ``At mass casualty 
incidents, no matter the scale, firefighters and other first 
responders will be there within minutes, and they will do what 
they have always done: Act to protect the public they serve.'' 
Knowing this, he urged Congress, ``Let us provide them with the 
tools they need to perform their duties safely and 
effectively.''
    Four months after delivering that testimony, Chief Fanning 
made the ultimate sacrifice at the World Trade Center. However, 
his tremendous legacy endures, as has the point that he made 
during that Congressional hearing. Members of the FDNY, NYPD, 
emergency management, and all first responder agencies are 
going to show up and protect the public, and we are 
tremendously appreciative of the ways in which our Federal 
partners, such as our colleagues at S&T, provide us with the 
tools to perform our duties safely and effectively.
    For more than 15 years, the National Urban Science and 
Technology Laboratory, NUSTL, in New York City has been a 
valuable resource to the FDNY. NUSTL is our conduit to S&T, and 
it helps the FDNY develop capabilities necessary to provide the 
highest levels of security for the New York UASI region.
    The scientific data, equipment testing, training, and 
support provided by NUSTL assist the FDNY in navigating the 
thousands of products, equipment, technology, and reports that 
we would otherwise be left to evaluate our own. We have 
invested heavily in all hazards and chemical, biological, 
radiological, and nuclear preparedness in units throughout the 
department, including hazmat and marine resources.
    In addition to our partnerships, I must also highlight the 
critical importance of homeland security grants, particularly 
UASI, in facilitating the FDNY's ability to make many of these 
investments. We pride ourselves on being good stewards of those 
programs, and with the support of S&T, have been very 
successful.
    NUSTL also helps to enhance the fire department's 
capabilities to prepare for, respond to, and mitigate potential 
radiological and nuclear threats. Incidents around the world 
like Goiania, Chernobyl, and Fukushima have all shown that 
radioactive contamination will lead to wide-spread public 
panic. By working together with our partners at S&T and the 
scientific community, we have been able to operationalize 
procedures such as the deployment of community reception 
centers, which will enable us to rapidly screen nearly a 
million people or more who may fear contamination. We have also 
provided input into an S&T operational guide titled ``RDD 
Guidance for the First 100 Minutes.''
    The knowledge we have gained and the plans we have 
developed inform first responder agencies across the Nation. 
New York City agencies have broad outreach, and it is through 
these avenues that we disseminate what we have learned, gain 
valuable feedback, and consistently work to improve 
preparedness.
    The NUSTL lab's location in lower Manhattan enables fire 
department personnel to access it with regularity. Our members 
attend monthly meetings for first responders, and periodic 
forums such as the New York Area Science and Technology Forum. 
NUSTL personnel also travel to fire department facilities 
across the city, and provide critical on-site guidance and 
evaluation.
    Homeland security is an immense challenge, and the New York 
City Fire Department is in a constant state of assessing and 
improving our resources to meet that challenge. Through our 
frequent and valuable interactions with NUSTL, the FDNY has 
greatly benefited from our partnership with S&T. The advantages 
of this relationship, both tangible and intangible, strengthen 
the department's ability to save life and property, and 
ultimately, make the people of New York and millions of 
visitors to the region safer each day.
    I thank you for your invitation to share experience with 
the Science and Technology Directorate, and that is the end of 
my statement, sir.
    [The prepared statement of Mr. Rice follows:]
                   Prepared Statement of Timothy Rice
                            November 7, 2017
    Good afternoon Chairman Donovan, Ranking Member Payne, and Members 
of the Subcommittee on Emergency Preparedness, Response, and 
Communications. My name is Battalion Chief Timothy Rice and I am the 
weapons of mass destruction branch coordinator for the New York City 
Fire Department (FDNY). Thank you for the opportunity to discuss the 
relationship between the FDNY and the Department of Homeland Security's 
Science and Technology Directorate (S&T).
    In May of 2001, FDNY's Chief of Hazardous Materials Operations--
Jack Fanning--appeared and testified before Congress on the topic of 
Government Capabilities Against Terrorism. Chief Fanning was one of the 
firefighters who responded to the World Trade Center bombing in 1993. 
Beginning with that attack, the role of the fire service began to shift 
into the area of disaster preparedness and responding to acts of 
terrorism. In his testimony, Chief Fanning described this shift and he 
detailed some of the plans and coordination that the FDNY and Federal 
partners were undertaking as a result. He made it clear that these 
efforts were the tip of the iceberg and that much work remained to be 
done.
    I have seen this first-hand throughout my own career. As a young 
firefighter in Engine 84 in Manhattan, I remember that our firehouse 
had a radiation survey meter. At the time, we kept it in the office 
under the Captain's bunk. However, as the range of threats against New 
Yorkers has grown and the risk of terror incidents broadened, the 
Department has had to adapt. We now confront a wide variety of 
challenges beyond the traditional view of firefighters running into 
burning buildings. As Chief Fanning put it in 2001, at mass casualty 
incidents--no matter the scale--firefighters and other first responders 
will be there within minutes and they will do what they have always 
done: Act to protect the public they serve. Knowing this, he urged 
Congress, ``let's provide them with the tools they need to perform 
their duties safely and effectively.''
    Four months after delivering that testimony, Chief Fanning made the 
ultimate sacrifice at the World Trade Center. However, his tremendous 
legacy endures, as does the point that he made during that 
Congressional hearing. Members of the FDNY, NYPD, Emergency Management, 
and all first responder agencies are going to show up and protect the 
public, and we are tremendously appreciative of the ways in which our 
Federal partners such as our colleagues at S&T provide us with the 
tools to perform our duties safely and effectively.
    It is not an easy task for a fire department to evolve from a role 
of traditional firefighting to a department that is also responsible 
for disaster preparedness, including acts of terrorism and the 
deliberate release of chemical and/or radiological materials and 
explosives. To stay ahead of emerging threats, the FDNY sought a 
partner in the scientific community to provide independent scientific 
research, data, expertise, and testing.
    For more than 15 years, the National Urban Security Technology 
Laboratory (NUSTL) in New York City has been a valuable resource to the 
FDNY. NUSTL is our conduit to S&T and it helps the FDNY develop 
capabilities necessary to provide the highest levels of security for 
the New York Urban Area Security Initiative (UASI) region. The 
scientific data, equipment testing, training, and support provided by 
NUSTL assists the FDNY in navigating the thousands of products, 
equipment, technology, and reports that we would otherwise be left to 
evaluate on our own. We have invested heavily in All Hazards 
preparedness and chemical, biological, radiological, and nuclear (CBRN) 
preparedness in units throughout the Department including HazMat and 
Marine resources. In addition to our partnerships, I must also 
highlight the critical importance of Homeland Security grants--
particularly UASI--in facilitating the FDNY's ability to make many of 
these investments. We pride ourselves on being good stewards of those 
programs, and with the support of S&T, we have been very successful.
    NUSTL also helps to enhance the Fire Department's capabilities to 
prepare for, respond to, and mitigate potential radiological and 
nuclear threats. Incidents around the world like Goiana, Chernobyl, and 
Fukushima, have all shown that radioactive contamination will lead to 
wide-spread public panic. By working together with our partners at S&T 
and the scientific community, we have been able to operationalize 
procedures that will greatly assist the response and recovery from 
incidents of this magnitude, such as the deployment of Community 
Reception Centers (CRCs), which will enable us to rapidly screen nearly 
a million people or more who may fear contamination. By performing 
screenings at CRCs, we will avoid flooding area hospitals and emergency 
rooms and preserve resources for the seriously injured, thereby saving 
more lives. We've also provided input to an S&T operational guide 
covering RDD Guidance for the First 100 Minutes.
    The knowledge we have gained and the plans we have developed inform 
first responder agencies across the Nation. New York City agencies have 
broad outreach and it is through these avenues that we disseminate what 
we have learned, gain valuable feedback, and consistently work to 
improve preparedness.
    To give one example, understanding the impact of a dirty bomb on 
the city involves understanding and predicting a number of scientific 
factors. Firefighters do not receive intensive training to study the 
physics of radiological material or to model plume clouds. NUSTL and 
other partners within S&T help first responders to understand the 
relationship between modeling and ground truth data, and they provide 
us with the capability to use data to better inform our radiation 
modeling. This allows us to respond in a more informed and effective 
manner. It is a collaboration that empowers the FDNY to make educated 
decisions about where we should set up equipment, create zones in which 
first responders may safely operate, and understand dangerous areas to 
be avoided. The Department benefits from having access to subject-
matter experts in close proximity and in turn we share the knowledge 
and experience we have gained with first responder agencies Nation-
wide.
    The NUSTL lab's location in lower Manhattan enables Fire Department 
personnel to access it with regularity. Our members attend monthly 
meetings for first responders and periodic forums on CBRN preparedness 
and emerging threats. NUSTL hosts and manages the New York Area Science 
and Technology Forum, which brings together Government and private-
sector resources to promote and discuss advances in science and 
technology. NUSTL personnel also travel to Fire Department facilities 
across the city to provide critical on-site guidance and evaluation. 
NUSTL plays a key role in the Department's preparedness and response 
planning for terrorist incidents, industrial accidents, and routine 
emergencies.
    This level of on-going support and engagement with NUSTL has helped 
the Department build a preparedness cycle of continuous learning and 
training. The more we train for specific scenarios, the more prepared 
we are to face them when they arise.
    With the help of NUSTL, the Department developed the Tiered 
Response System, which functions as a force-multiplier, outfitting FDNY 
with a mechanism to scale and adapt the appropriate expertise to the 
incident or emergency. We also build systems of collaboration, 
partnering with other city agencies and regional responders to share 
lessons learned and to develop interagency plans, protocols, and 
drills. Members of the Department have acquired a tremendous amount of 
knowledge and know-how since 9/11 and this knowledge is helping the 
city plan and prepare for extreme hazards and emergencies.
    Specific NUSTL programs that FDNY participates in include:
  <bullet> Radiological/Nuclear Response and Recovery (RNRR) Research 
        and Development
    <bullet> This project is aimed at improving State and local 
            response to radiological and nuclear events. FDNY and other 
            New York-area agencies participate in working groups and 
            coordinate to develop guidance and tools to enhance 
            preparedness and response capabilities.
  <bullet> System Assessment and Validation for Emergency Responder 
        (SAVER)
    <bullet> The SAVER program provides first responder agencies with 
            the results of NUSTL testing and assessments of 
            commercially-available emergency response technologies. As 
            a city agency, the SAVER program is useful for learning 
            about the existence of new technology as well as the 
            availability and performance of that technology. This 
            enables us to redeploy resources that may otherwise have 
            been consumed by the process of investigating, testing, and 
            assessing potential advances in the market. In addition, 
            FDNY and other New York-area agencies have the opportunity 
            to articulate gaps and needs and receive guidance about 
            potential solutions.
  <bullet> Critical Incident Management Technology Assessment (CIMTA)
    <bullet> The Critical Incident Management Technology Assessment is 
            an annual event that is staged by NUSTL in order to provide 
            FDNY and other New York-area agencies with an opportunity 
            to test cutting-edge first responder technologies on a 
            large scale under real-life conditions. In the course of 
            the event, first responder agencies are able to provide 
            training, field-test equipment, understand the strengths 
            and weaknesses of preparedness training, and collaborate 
            with technology developers to fill potential equipment 
            gaps. Past examples have included testing handheld mobile 
            detection and collection equipment, wide-angle thermal 
            imaging cameras, and video content analysis and video 
            analytics.
  <bullet> Urban Operational Experimentation (OpEx)
    <bullet> Urban Operational Experimentation provides first responder 
            agencies such as FDNY an opportunity to view demonstrations 
            of innovative products and a chance to experiment with 
            those products in an urban environment. The program brings 
            private-sector partners in contact with first responder 
            agencies, serving as a catalyst to allow agency feedback to 
            spur advances in technology.
  <bullet> New York Area Science and Technology Forum (NYAST)
    <bullet> The New York Area Science and Technology Forum convenes 
            Federal, State, and local first responders as well as 
            groups from academia and the private sector to meet and 
            discuss advances in science and technology. These regular 
            meetings bring together a wide variety of groups and lead 
            to critical sharing and learning among the participants, 
            helping the entire first responder community stay up-to-
            date on advances in the field.
  <bullet> Performance Test and Evaluation (PTEN)
    <bullet> NUSTL's Performance Test and Evaluation program provides 
            testing of radiation detection equipment to ensure that it 
            works properly and that all supporting accessories and 
            devices are functional. Performed in conjunction with the 
            Domestic Nuclear Detection Office's Securing the Cities 
            program, PTEN involves not only equipment testing but also 
            provides first responder agencies with technical guidance 
            and support and expert advice regarding storage and 
            deployment of the devices. This includes equipment such as 
            personal radiation detectors, backpack detectors, mobile 
            detection units, and isotope identifiers.
  <bullet> Responder Training and Exercise (RTE)
    <bullet> Also performed in conjunction with the Domestic Nuclear 
            Detection Office's Securing the Cities program, NUSTL's 
            Responder Training and Exercise program provides first 
            responder agencies with radioactive sources, training 
            equipment, and technical expertise to enhance training on 
            radiation detection equipment. This includes supplying 
            health physicists and technical staff, training equipment, 
            and materials.
    Homeland security is an immense challenge and the New York City 
Fire Department is in a constant state of assessing and improving our 
resources to meet that challenge. Through our frequent and valuable 
interactions with NUSTL, FDNY has greatly benefited from our 
partnership with S&T. The advantages of this relationship--both 
tangible and intangible--strengthen the Department's ability to save 
life and property and ultimately make the people of New York and 
millions of visitors to the region safer each day.
    I thank you for your invitation to share our experience with the 
Science and Technology Directorate and I am happy to answer your 
questions at this time.

    Mr. Donovan. Thank you, Chief Rice.
    The Chair now recognizes Dr. Parker for 5 minutes.

 STATEMENT OF GERALD W. PARKER, JR., ASSOCIATE DEAN FOR GLOBAL 
   ONE HEALTH, COLLEGE OF VETERINARY MEDICINE AND BIOMEDICAL 
                 SCIENCES, TEXAS A&M UNIVERSITY

    Mr. Gerald Parker. Chairman Donovan, Ranking Member Payne, 
and distinguished Members of the subcommittee, I am honored to 
appear before you today to provide my perspectives on the 
Department of Homeland Security's Science and Technology 
Directorate.
    The complexity and changing nature of the threats we face 
today, from terrorism to pandemics, are compounded by the 
complexity of our Nation's vast Homeland Security Enterprise 
that extends far beyond the Department of Homeland Security. 
The S&T Directorate has a critical role in helping unlock our 
Nation's creative imagination and innovative spirit, which is 
vital to defending against the known and unknown threats to 
homeland security. I believe our Nation's universities must be 
strong partners with S&T in this effort, either through the 
Centers of Excellence programs, or other programs.
    The S&T Directorate has made great strides since its 
founding, and particularly more recently, under the leadership 
of my panel colleague, Dr. Brothers. Dr. Brothers applied sound 
leadership principles that effectively brought focus to the 
Department's evolving near and longer-term needs. He also 
placed priority on the employee morale that improved the 
command culture of the directorate.
    Although the S&T Directorate is in better shape than ever, 
continued evolution is essential, as the threats and challenges 
will evolve, too. But harnessing the broader interagency 
Homeland Security Science and Technology Enterprise, 
particularly for biodefense, is also an important policy 
question.
    What is the role of the S&T Directorate? To serve only the 
DHS components, or to help drive the broader interagency 
research enterprise, to include funding shared homeland 
security gaps that may be a primary purview of another Federal 
agency? Examples include defense against animal agriculture 
from bioterror attacks, and biological attribution.
    I believe DHS/S&T interagency leadership is essential. As 
originally envisioned, the S&T Directorate should have assumed 
a larger biodefense leadership role through biological risk 
assessments. But a link between risk assessments to interagency 
homeland security priorities and appropriations remains 
elusive. It is now clear this will require White House 
leadership coupled to a new National strategy, as recommended 
by the Biodefense Blue Ribbon Panel.
    The administration's pending biodefense strategy and 
decisional leadership may result in renewed interest in a need 
to reboot the DHS/S&T risk assessments, and play a larger 
interagency role. A near-term concern, the President's 2018 
budget request, proposed to eliminate agricultural and animal-
specific homeland security research by the S&T Directorate, and 
has recommended closure for the National Biodefense and 
Analysis Countermeasures Center, or NBACC, to provide savings 
for other priorities.
    DHS, with substantial contributions from the State of 
Kansas, will spend well over $1 billion to construct the 
National Bio and Agro-Defense Facility, or NBAF. The homeland 
security research needs of NBAF have been documented. However, 
NBAF will not reach its potential without Federal funding for 
the critical research its planners envisioned. That included 
USDA and DHS/S&T research programs.
    Recommended closure of the NBACC also raises questions 
about the NBAF that is still under construction. Does the same 
fate await the NBAF?
    These examples signaled diminished DHS and Executive branch 
support for agricultural biosecurity research specifically, and 
biodefense in general at a time that we should elevate this 
issue, not push it off until next outbreak or bioterror attack, 
when it will be too late. The recent Ebola and avian flu 
outbreaks demonstrate this threat.
    Beyond biodefense, these two homeland security examples--
the need for interagency leadership and adequate funding 
support--may be symptomatic of a larger policy issue for the 
S&T Directorate. Is the S&T Directorate saddled with legacy 
laboratory infrastructure that does not fit the DHS internal 
priorities today, even if these assets are important to the 
broader enterprise? It may be better policy to transfer it to 
the appropriate lead Federal agency to own, operate, and 
maintain critical laboratory infrastructure, such as the NBAF, 
NBACC, or other laboratories, rather than proposed closure, or 
maintaining the status quo within DHS/S&T. It is a policy 
question.
    There are many issues to consider in such a policy option 
where pursued, but the end result may be better stewardship of 
critical laboratory assets needed for the broader Homeland 
Security Enterprise. It may also allow the S&T Directorate to 
focus on a research innovation portfolio that can more easily 
flex to changing needs over time, and better engage university 
scientists.
    Thank you for the opportunity to appear before you today. I 
will be happy to answer your questions. Thank you.
    [The prepared statement of Mr. Gerald Parker follows:]
               Prepared Statement of Gerald W Parker, Jr.
                            November 7, 2017
    Chairman Donovan, Ranking Member Payne, and distinguished Members 
of the subcommittee, I am honored to appear before you today for this 
hearing entitled, ``How Effective is the Department of Homeland 
Security's Science and Technology Directorate? Stakeholder 
Perspectives''.
    As a matter of full disclosure, I am a member of the Homeland 
Security Science and Technology Advisory Committee (HSSTAC), but I 
appear before you today representing my own perspectives, and not of 
the HSSTAC nor Texas A&M University. I will offer insights from my role 
as a public servant that spanned 26 years active-duty military service 
primarily in Army medical research & development at the Unites States 
Army Medical Research and Materiel Command and the United States Army 
Medical Research Institute of Infectious Diseases; 10 years in the 
career senior executive service (DHS, HHS, and DOD); and now as 
faculty/administrator at Texas A&M University.
    I do not have to tell you how difficult the homeland security 
mission is today. You are well aware of the challenges, and the 
difficult decisions that must be made regarding authorizations, budget 
allocation, and appropriations for the many competing demands.
    The homeland security mission is extremely complex and the threats 
we face are constantly evolving and range from terrorism, natural 
disasters, and pandemics. Threats from terrorism and violent extremism 
include the use of weapons of mass destruction against our Nation, the 
civilian population, and our critical infrastructure.
    Today, I am more concerned than ever about the risks from 
biological threats--including bioterrorism and naturally-occurring 
transboundary emerging infectious diseases that could affect humans, 
animals, and our economy. Although we are much better prepared today, 
partly due to the dedicated efforts of the DHS Science and Technology 
Directorate and many others across the vast U.S. Government 
interagency; State, local, territorial, and Tribal governments; and 
non-government organizations. However, recent reports by the Biodefense 
Blue Ribbon Panel tell us that we have a long way to go; These reports 
include ``A National Blueprint for Biodefense: Leadership and Reform 
Needed to Optimize Efforts''\1\ and ``Defense of Animal Agriculture: A 
Report of the Biodefense Blue Ribbon Panel''\2\. Recent high-
consequence infectious disease outbreaks, to include the Ebola outbreak 
of 2014-2016 and Highly Pathogenic Avian Influenza outbreaks in the 
United States from 2014 to 2016, also tell us we are not prepared, and 
remain highly vulnerable to naturally-occurring transboundary 
infectious diseases, as well as bioterror attacks.
---------------------------------------------------------------------------
    \1\ Blue Ribbon Biodefense Study Panel. A National Blueprint for 
Biodefense: Leadership and Reform Needed To Optimize Efforts. October 
2015.
    \2\ Blue Ribbon Biodefense Study Panel. Defense for Animal 
Agriculture. October 2017.
---------------------------------------------------------------------------
    I previously testified before the House Committee on Energy and 
Commerce's Subcommittee on Oversight and Investigation, and I will 
repeat a statement I made then in my testimony today:\3\
---------------------------------------------------------------------------
    \3\ Gerald W Parker, Jr., DVM PhD. Hearing of the House Committee 
on Energy and Commerce Subcommittee on Oversight and Investigations. 
Attacks, Outbreaks and Attacks. February 12, 2016.
---------------------------------------------------------------------------
    1. Biological threats are real, and the bioterror threat has the 
        potential to cause mass casualties on a scale similar to a 
        nuclear weapon;
    2. The inter-epidemic period, or time between outbreaks, requires 
        urgent action to optimize available resources and 
        biopreparedness; and
    3. Strong centralized leadership will be necessary to drive urgent 
        action in the inter-epidemic period.
    This statement has relevancy to the topic today regarding the DHS 
Science and Technology Directorate. We cannot afford to remain 
complacent about biological threats, nor can we afford to continue 
business as usual. Innovation, creative imagination, and leadership are 
more important than ever.
    The complexity and changing nature of the threats we face today, 
including from biological threats, are confounded by the complexity of 
the vast homeland security enterprise. The homeland security enterprise 
extends far beyond the Department of Homeland Security. Other Federal 
department/agencies have homeland security responsibilities, as do 
State, local, territorial, and Tribal governments, and the private 
sector. I also believe that communities, families, and individuals have 
homeland security and preparedness responsibilities, too.
    Science and Technology will play a key, if not a vital, role in 
defending against the many threats to homeland security. But, 
harnessing the interagency science and technology enterprise that 
extends beyond the Department of Homeland Security's Science and 
Technology Directorate to take urgent action on the highest priorities 
in a focused manner that optimizes available resources remains elusive. 
I am also concerned that Department of Homeland Security's Science and 
Technology Directorate may not give biological threats priority 
consideration. I am particularly concerned that the DHS Science and 
Technology Directorate may eliminate funding for research and 
development for animal agriculture defense, and that the National 
Biodefense and Analysis Countermeasures Center may be closed.
    Finally, funding for the University Centers of Excellence is 
significantly reduced by the DHS Science and Technology Directorate in 
the President's budget request on a yearly basis only to be restored by 
Congress; I can understand the Science and Technology Directorate's 
need to have more budget discretion for research and development 
accounts, but if the S&T Directorate is not satisfied with the 
performance of the University Centers of Excellence then the whole 
program should be considered for elimination, rather than a slow 
attrition through reduced funding for the centers. That uncertainty 
only serves as a disincentive for university participation. However, 
the original intent of the Science and Technology Directorate to engage 
university scientists in homeland security solutions remains unchanged 
and should be valued and embraced by the Department rather than 
continually reduced in the budget exercise. I strongly recommend 
maintaining the University Centers of Excellence program, or an 
alternative strategy that maintains meaningful university involvement 
to ensure our best and brightest academicians are included in homeland 
security solutions in a manner to how the Defense Department ensures 
that universities are included in National security solutions.
    Fortunately, the Trump administration is developing a new National 
strategy for Biodefense as recommended by the Biodefense Blue Ribbon 
Panel.\4\ Although the new strategy has not been released, I am hopeful 
that the biodefense strategy will be comprehensive, and include 
strategies for the defense against attacks, outbreaks, and accidents; 
linked to a unified interagency budget; and include strong White House 
leadership with clearly-identified lead and supporting accountability 
metrics for all Departments and Agencies, including the Department of 
Homeland Security and the underpinning Science and Technology 
Directorate.
---------------------------------------------------------------------------
    \4\ Blue Ribbon Biodefense Study Panel. A National Blueprint for 
Biodefense: Leadership and Reform Needed To Optimize Efforts. October 
2015.
---------------------------------------------------------------------------
    Interagency coordination and leadership for the homeland security 
science and technology enterprise is an important policy question that 
hopefully will be addressed in the new National strategy. The strategy 
should include a clearly-identified role for the Department of Homeland 
Security (DHS) Science and Technology Directorate.
    Regarding the primary question for this hearing, I believe the 
Department of Homeland Security's Science and Technology Directorate 
has made great strides since its establishment by the original homeland 
security act, and particularly in recent years under the leadership of 
Dr. Brothers and Dr. O'Toole. Dr. Brothers established new, visionary 
goals and areas of focus that included: (1) Responder of the future; 
(2) Enabled decision makers; (3) Screening at speed; (4) Trusted Cyber 
Future; (5) Transformed airport borders; (6) Resilient communities; and 
(7) CBRN defense. Dr. Brothers also extended the APEX Program initiated 
by Dr; O'Toole, and brought a sense of priority to meeting near-term 
requirements of the Department of Homeland Security components over 
those needs of the broader homeland security enterprise. Command 
culture and worker satisfaction of the Science and Technology 
Directorate also made great strides during Dr. Brother's tenure as the 
under secretary. I know several program managers and scientists in the 
Science and Technology Directorate. They are dedicated professionals 
working hard to make a difference, and I believe they are making a 
difference.
    Performing organizations supported or funded by the Science and 
Technology Directorate--whether from National laboratories, 
universities, and the private sector--are also making a difference, and 
I believe largely enjoy the working relationship they have with the 
Science and Technology Directorate. However, I also believe the 
uncertainty of not having a new under secretary for the Directorate is 
causing apprehension for the Directorate's staff and performing 
organizations. It is critical that a new under secretary be appointed 
and approved soon.
    Despite the hard work by many and the progress to date, I believe 
the Science and Technology Directorate has ceded responsibility to be a 
lead coordinator for the broader science and technology homeland 
security enterprise. I believe an interagency lead role for the broader 
homeland security enterprise is required as originally envisioned when 
the DHS Science and Technology Directorate was established--
particularly for biodefense. It is clear now that strong leadership for 
the interagency biodefense enterprise is needed now more than ever 
before.
    To provide context, I joined the Department of Homeland Security's 
Science and Technology Directorate in 2004. There was a true sense of 
urgency at that time as the Directorate was established after the 
terrorist's attacks on September 11, 2001, the anthrax letter attacks a 
few weeks later, enactment of Project BioShield, and issuance of 
Homeland Presidential Directives 9 and 10. The Science and Technology 
Directorate placed high priority on defense against weapons of mass 
destruction--including biological threats--and assumed an interagency 
leadership role for the homeland security scientific enterprise. 
Biodefense threat, risk, and net assessments were established with the 
intent to drive interagency requirements and provide leadership for 
biodefense programs across the interagency. The National Security 
Council and Office of Science and Technology Policy also provided 
effective White House-level policy leadership that relied on early DHS 
risk assessments. Initial attempts by DHS S&T to lead, coordinate, and 
fund, where appropriate, the broader science and technology homeland 
security enterprise were initially successful. However, over time it 
became clear that other agencies were not receptive to being 
``coordinated'' by DHS S&T. In defense of the interagency, the style of 
leadership practiced by DHS S&T as time went on was not as collegial 
and transparent as it could have been for success.
    Today, I see a Science and Technology Directorate that is more 
concerned with staying in their ``lane'' and serving only the DHS 
components as more important than playing a broader homeland security 
enterprise leadership coordinating role. I also see a broader 
interagency homeland security enterprise that does not place value on 
the DHS threat and risk assessments in driving their own homeland 
security requirements. From what I can discern, DHS S&T seems to have 
also abandoned their practice of conducting interagency biodefense net 
assessments, too.
    In defense of the S&T Directorate, competing and ``siloed'' 
interagency biodefense interests are now common-place, leading to a 
relative lack of interagency coordination and inefficient use of 
available resources for the growing biological threats.\5\ Departmental 
and Congressional pressures have also led to an inward, DHS-only 
component focus. These issues only highlight the critical importance 
for a new biodefense strategy and renewed strong White House leadership 
for Biodefense.
---------------------------------------------------------------------------
    \5\ Blue Ribbon Biodefense Study Panel. A National Blueprint for 
Biodefense: Leadership and Reform Needed To Optimize Efforts. October 
2015.
---------------------------------------------------------------------------
    There are two other concerns of the DHS Science and Technology 
Directorate that I will highlight in my testimony. Defense of Animal 
Agriculture and Biological Attribution.
    The Department of Homeland Security Science and Technology Director 
assumed operations for the Plum Island Animal Disease Laboratory and 
has embarked on an aggressive construction campaign to move those 
unique large animal research and defense functions from Plum Island in 
New York to the National Bio and Agro-Defense Facility (NBAF) at Kansas 
State University in Manhattan, Kansas. Construction is well under way 
and promises to provide a state-of-the-art facility to enable critical 
animal health and biodefense research. The DHS S&T Directorate also 
supported critical research and development funding for defense against 
agriculture bioterrorism that is filling critical gaps identified by 
USDA and other key homeland security stakeholders that otherwise would 
not have been funded by USDA.
    The President's 2018 budget request eliminates DHS Science and 
Technology funding for animal agriculture bioterrorism defense. This is 
a concern not only of mine, but several animal health stakeholders, 
that include State veterinarians, as well as animal health and 
production industries that have homeland security responsibilities. As 
a policy option, there is merit to shifting DHS S&T requirements and 
funding to USDA under existing USDA authorities and appropriations. If 
this is done, DHS S&T should also consider transferring the NBAF to 
USDA. But it is not apparent that DHS research and development 
requirements and programs have been coordinated with USDA for an 
effective transition. Rather, it appears that on-going research and 
development programs supported by DHS S&T for agriculture bioterrorism 
defense will be terminated. This will not only cause a research and 
development gap, but it also causes uncertainty for the business and 
operations model envisioned for the NBAF, as well as on-going 
commitments to the importance, or not, of defense against agriculture 
bioterrorism. Time will tell if the new biodefense strategy and 
Congressional intent will address this gap. It is hoped that the new 
National biodefense strategy will incorporate the recommendations of 
the Biodefense Blue Ribbon Panel on issues related to animal health, 
and incorporate the practice of one health into that strategy. If not, 
the business and operations model of the NBAF could be in jeopardy, as 
well as our capability to conduct research and diagnostics for high-
consequence foreign animal diseases. I hope that latter is not the case 
as it could be a costly mistake to our economy and well-being in the 
long run.
    The President's DHS S&T budget request for fiscal year also 
eliminates funding that would force closure of a state-of-the-art, one-
of-a-kind biocontainment laboratory--the National Biological Analysis 
and Countermeasures Center (NBACC) at Fort Detrick, MD. This decision 
seems short-sighted and not well-considered.
    Naturally-occurring and man-made biological threats pose a grave 
risk to our health and National security. Globalization, population 
growth, urbanization, and other factors are creating a perfect storm 
for the emergence of high-consequence infectious diseases. A terrorism 
nexus also exists in many of these same global disease ``hot spots'', 
and together, are changing the nature of biological risks.
    This is exacerbated by the diffusion of technical expertise coupled 
with the biotechnology revolution, drastically increasing the threat of 
bioterrorism. New technologies have decreased resources and financial 
requirements for entry, and increased capabilities that could be 
misused by a determined bioterrorist.
    There are many that believe we need to strengthen infectious 
disease surveillance and laboratory capabilities to detect threats 
early--an area that DHS also plays a role. Similarly, we need core 
microbial forensic laboratory capabilities to enable attribution--an 
area that DHS has a primary role.
    As stated earlier in my testimony, I am more concerned than ever 
about the risk of biological threats--whether from outbreaks, 
accidents, or attacks. This includes a need to underpin no-regret 
attribution decisions with a sound scientific foundation in microbial 
forensics.
    The anthrax letter attacks marked the first significant act of 
bioterrorism in the United States. That attack was one of the easiest 
bioterror attacks to confront, yet the impact was far-reaching. As bad 
as it was, it could have been much worse had the pathogen involved been 
a contagious agent, resistant to antibiotics, an unknown pathogen, or 
delivered in a covert wide-spread aerosol attack across multiple 
jurisdictions. As it was, the anthrax letters shut down the Hart Senate 
Office Building for 3 months, wreaked havoc with the U.S. Postal 
Service, reduced business productivity, cost the Nation more than $1 
billion, and tragically, took 5 lives and sickened 17 more. More than 
30,000 people required post-exposure antibiotics.
    Many still recall frightening moments experienced during that time, 
particularly those who were potentially exposed to anthrax spores in 
the Hart Senate Office Building, postal processing facilities, and 
media offices.
    This event also forever changed our notions of laboratory 
biosecurity, biosafety, and personal reliability in the biological 
sciences, and the emerging science of microbial forensics. An 
understanding of the importance of microbial forensics was greatly 
accelerated at that time. I, along with many others at the FBI and in 
the DHS Science and Technology Directorate were involved in defining 
the laboratory requirements needed to support a core capability for 
microbial forensics. Unfortunately, decisions being made today 
regarding the NBACC seem to have lost our lessons learned from first-
hand experience during that era.
    The follow-on FBI Anthrax investigation applied the emerging 
science of microbial forensics, and along with traditional 
investigative procedures, ultimately attributed the attack to a lone 
U.S. scientist.
    Attribution to determine who is responsible for an attack, whether 
a crime, act of terror, or warfare is essential to hold those 
responsible accountable for their actions, prevent future attacks, and 
serve as a deterrent. Attribution and the supporting microbial forensic 
sciences are also important to exonerate--and rule out--suspected 
perpetrators, whether a nation-state, terror group, or criminal that is 
innocent.
    The stakes could be very high, particularly when a nation-state is 
involved or suspected--and a rush to judgment before the science and 
evidence are in, should be avoided. Decisions to attribute, especially 
a nation-state, will be consequential, no-regret decisions--that must 
be guided by a strong scientific and evidentiary foundation.
    It is similarly important to differentiate a naturally-occurring 
infectious diseases outbreak from an attack. It may not be readily 
apparent that an outbreak was natural or due to an intentional cause at 
the first sign of disease--or even after an outbreak has run its 
course--whether in people or animals.
    Prior to 9/11 and the anthrax letter attacks, scientists and 
operators from the FBI, CDC, and DOD had already begun establishing 
needed protocols to enable collaboration to account for public health 
and law enforcement requirements for sample collection and analysis, 
and imitated what we know today as the science of microbial forensics.
    This same group also began planning for unique laboratory 
capabilities and the scientists that would be needed to support 
attribution--whether for an attack, accident, or outbreak--and to 
uncover and document illicit proliferation activities. The facilities 
envisioned then and soon after the anthrax attacks include the 
laboratory that was subsequently constructed and in use today at Fort 
Detrick--The National Biodefense Analysis and Countermeasures Center, 
or NBACC.
    I cannot overstate the importance of having dedicated, core 
laboratory capabilities and scientists that are focused on microbial 
forensics to support attribution. It is not a part-time job, or other-
duties-as-assigned function.
    Microbial forensics is still, and will always be an evolving 
science--perhaps not well understood outside of the relatively few 
professionals in their field. But, prosecutors and National command 
authorities who will one day be thrust into the position of making no-
regret attribution decisions will quickly grasp the importance of 
microbial forensics as essential to underpin their pending difficult 
decisions.
    The science of microbial forensics will only get more complex with 
the continued rapid advancement of new biotechnology tools that are 
readily available, and as new examples of dual use research of concern 
emerge from our scientific enterprise that could be misused to do harm. 
A recent example is the report by Canadian scientists on the synthesis 
of the horse pox virus.
    There was considerable thought that went into the establishment of 
the NBACC laboratory to support law enforcement and National security 
attribution. To my knowledge, those original planning assumptions have 
not substantially changed. I strongly recommend that those strategies 
and needed capabilities are not abandoned.
    Finally, it is important to reiterate that the DHS Science and 
Technology Directorate has made great strides; the Directorate's 
program managers, scientist, and their contract performers are doing 
everything in their power to help keep our homeland safe and secure. 
But, we must acknowledge that the DHS Science and Technology 
Directorate has a difficult task. Budget limitations and other 
pressures will not allow them to satisfy all competing needs of the 
vast homeland security enterprise, not to mention those needs of just 
the DHS components. Given that, the Science and Technology Directorate 
should focus available resources on those programs that only the 
Federal Government must do, and address threats that are more 
existential in nature that the private sector cannot or will not be 
able to address. Biological threats, and other weapons of mass 
destruction largely fit this category. The Directorate should also take 
a longer-term view and imbed creative imagination, innovation, 
university scientist, and sound leadership practices in their programs. 
A true DARPA-type approach as originally envisioned for HSARPA is 
needed. Business as usual will not get the job done.
    Recommendations:
    1. The committee should ensure that the administration develops a 
        comprehensive biodefense strategy that is tied to a unified and 
        transparent budget, with clearly-identified lead and supporting 
        roles--and support a strong White House leadership role to 
        elevate the importance of biodefense to homeland security and 
        drive interagency coordination and optimal use of available 
        resources.
    2. The committee should ensure that the DHS Science and Technology 
        Directorate reestablishes leadership role in the new National 
        strategy to help drive broader homeland security biodefense and 
        homeland security requirements through a transparent and 
        trusted bio-risk threat assessment and net assessment process 
        that White House leadership can use to enforce interagency 
        outcomes, performance, and accountability.
    3. The committee should ensure the DHS Science and Technology 
        Directorate does not eliminate their animal agriculture 
        bioterrorism defense research and development programs unless 
        there is a plan in place to transition those R&D requirements 
        and programs to USDA. The committee should also work with DHS 
        and USDA to also consider transferring NBAF to USDA if DHS does 
        not maintain animal defense R&D programs.
    4. The committee should work with the DHS Science and Technology 
        Directorate to ensure that the National Biodefense and Analysis 
        and Countermeasures Laboratory is not closed and to ensure that 
        a plan for transition of ownership and operations of the 
        laboratory to either the FBI, DOD, or the intelligence 
        community is completed and implemented.
    5. The DHS S&T Directorate and the broader DHS department should 
        implement recommendations of the Biodefense Blue Ribbon 
        Report.\6\ \7\
---------------------------------------------------------------------------
    \6\ Blue Ribbon Biodefense Study Panel. A National Blueprint for 
Biodefense: Leadership and Reform Needed To Optimize Efforts. October 
2015.
    \7\ Blue Ribbon Biodefense Study Panel. Defense for Animal 
Agriculture. October 2017.
---------------------------------------------------------------------------
    6. The DHS S&T Directorate should ensure that there is an effective 
        mechanism to keep university scientists engaged on homeland 
        security solutions, whether that is sustainment of the Centers 
        of Excellence model or an alternate strategy.
    7. The DHS S&T Directorate should continue implementing a more 
        innovative, DARPA-type culture for the homeland security 
        science and technology enterprise.
    Thank you for the opportunity to appear before the hearing of the 
U.S. House of Representatives Committee on Homeland Security's 
Subcommittee on Emergency Preparedness, Response, and Communications 
today.

    Mr. Donovan. Thank you, Dr. Parker.
    The Chair now recognizes Mr. Parker for 5 minutes.

  STATEMENT OF JAKE PARKER, DIRECTOR OF GOVERNMENT RELATIONS, 
                 SECURITY INDUSTRY ASSOCIATION

    Mr. Jake Parker. Good morning, Chairman Donovan, Ranking 
Member Payne, and distinguished Members of the subcommittee. I 
am Jake Parker, director of government relations for the 
Security Industry Association, which represents nearly 800 
companies that provide security technology solutions.
    Thanks for the opportunity to speak about the important 
partnership between DHS S&T and its stakeholders in the private 
sector. The input I am providing here is based broadly on the 
experiences and perspectives that SIA member companies have 
shared with me, including both small and large businesses. I 
have tried to summarize these for you, and provide an 
unfiltered way as possible.
    Technology provided by our industry plays a key role in DHS 
component operations in protecting critical infrastructure. 
Since November, this month, is Critical Infrastructure Security 
and Resilience Month, I first wanted to highlight S&T's work 
through the Support Anti-terrorism by Fostering Effective 
Technologies Act, known as the SAFETY Act. This is the most 
common interface between our member companies and S&T.
    As you know, the SAFETY Act was passed in the aftermath of 
the September 11 attacks to establish a way to encourage the 
development and deployment of security technologies to protect 
critical infrastructure, and the vast majority of that 
infrastructure is owned and operated by the private sector. It 
provides liability protections for certified suppliers and end-
users against claims arising from terrorist attacks, which this 
has been identified as a major obstacle to the deployment of 
the effective security measures at that time.
    Not only does the SAFETY Act provide liability protections, 
but the designation and certification provides assurances that 
a product or system meets high standards of safety and 
effectiveness, and that it works as intended. Our industry 
provides manufactured products, as well as systems integration 
services, and even software, such as cybersecurity programs. 
All of these are potentially eligible, but more recently, 
owners and operators of facilities, such as sports stadiums, 
are making use of the SAFETY Act designation for their entire 
system of security measures as a comprehensive program, and in 
this, our security technology plays a key role as well.
    So over the past year, we understand that 91 applications 
were approved by the SAFETY Act Office out of 133 submitted, 
taking an average of nearly 4 months to get through the 
process, and this has a significant jobs and economic impact. 
The office projected that the approval of these technologies 
will support 87,000 jobs, and greatly increase local business 
revenue.
    So we believe that Congress should work to ensure this 
important program continues to be successful, and is provided 
with the resources necessary to meet the demand. Specifically, 
we believe that Congress should provide the SAFETY Act Office 
with a line item appropriation. This will provide budgetary 
certainty and program continuity, as well as help measure the 
return on investment.
    On the broader array of S&T programs, we are encouraged 
with the recent signs the directorate is strengthening its 
efforts to coordinate research across DHS components and 
industry stakeholders.
    Two years ago, when Dr. Brothers, who we are honored to 
have with us here today, was serving as under secretary, the 
integrated product teams were reestablished to track and 
harmonize Department-wide research and development efforts, 
which the Chairman highlighted was a step in the right 
direction, which we agree with. The most recent IPT report is 
only the second since this data has begun to be gathered, and a 
new process has been implemented for involving the operational 
components and identifying the gaps where S&T efforts will be 
the most effective. According to this most recent report, IPT's 
are intended to sustain a year-round process in which a 
specific component is designated to shepherd the process for 
each gap that is identified, from the point it is identified to 
the transition to solutions that close it.
    We think this is really encouraging, because in the view of 
our member companies, the business case for involvement in S&T 
programs would be much stronger if each effort was championed 
by a DHS operational component that is involved at some level 
from the beginning of the process, and committed to making use 
of the technologies explored. This may result from the fact 
that there is a perception out there that the S&T programs only 
infrequently impact the operational procurement activities of 
DHS components in a significant way. More involvement from the 
components up front could help improve this perception, as well 
as efforts to increase industry awareness of these new 
initiatives by S&T, which are more focused.
    So in October, S&T released a new industry guide which I 
think does a great job at providing industry with the road map, 
teaching the ways they can participate, and summarizes the 
directorate's current and future needs. We understand this is 
the first step toward providing a centralized on-line interface 
for industry.
    Members also tell us that for many smaller companies, 
responding to the call for proposals needs to be aligned with 
something they are already doing in order to help justify the 
use of resources to apply. This is especially true if the 
responding to grant proposals and other research opportunities 
is not a normal and significant part of a technology company's 
business model. Whether large or small, though, companies tell 
us that it would benefit them greatly if the process of working 
with S&T was easier and less bureaucratic.
    We are optimistic about plans to update and improve S&T's 
long-range broad agency announcements process, which is 
sustaining requests to the private sector to develop needed 
technology, and it is available for funding over multi-year 
periods.
    We understand that early next year, S&T is planning to make 
significant changes to this process, based on industry 
feedback, as it is retooled for 2019 and beyond. This includes 
a more direct linkage to component needs, administrative 
simplification, shortened review times, and clarification of a 
streamlined application process, and actually, an involvement 
from program managers prior to submission to make sure that 
there is the highest quality.
    When it comes to the S&T research and divestment outlook 
for the next 4 years, the security industry is poised to 
contribute significantly, particularly when it comes to areas 
like biometrics collection and utilization, robotics and 
autonomous systems, enhanced situational awareness, identity 
credentialing and access management, automated vetting, and 
other technologies.
    We applaud S&T's goals, outlining its 2017 innovation 
strategy to ensure the industry is fully engaged in meeting the 
demands of the Homeland Security Enterprise, and that the end-
users of homeland security technology in both the public and 
private sectors have access to the best available products.
    So we are committed to doing our part as an association to 
help engage industry with this effort, and look forward to 
answering any questions you may have. I will do my best, but if 
I can't, I will definitely go back to our members and provide 
you an answer. Thank you.
    [The prepared statement of Mr. Jake Parker follows:]
                   Prepared Statement of Jake Parker
                            November 7, 2017
    Good morning Chairman Donovan, Ranking Member Payne, and 
distinguished Members of the subcommittee. I am Jake Parker, director 
of government relations for the Security Industry Association, a non-
profit international trade association representing nearly 800 
companies that develop, manufacture, and integrate security solutions, 
and employ thousands of technology leaders.
    Thank you for the opportunity to testify before you today on the 
partnership between the U.S. Department of Homeland Security (DHS) 
Science and Technology Directorate (S&T) and its stakeholders in the 
private sector. The input I am providing is based, broadly, on the 
experiences and perspectives SIA member companies have shared with me, 
which include both small companies and large corporations.
    Technology provided by the security industry plays a key role in 
DHS component operations, and in protecting critical infrastructure 
such as chemical facilities, airports, seaports, mass transit systems, 
the energy sector, Federal offices, and even K-12 schools and 
universities.
    Since November is Critical Infrastructure Security and Resilience 
Month, I want to first highlight S&T's work through the Support Anti-
Terrorism by Fostering Effective Technologies (SAFETY) Act Office, 
which is the most common interface between SIA member companies and the 
Directorate. As you know, the SAFETY Act of 2002 established a process 
to encourage the development and wide-spread deployment of security 
technologies addressing the terrorist threat by providing liability 
protections for qualified providers against claims arising from 
terrorist attacks. The potential for such claims was identified as 
major obstacle to the deployment of effective security solutions 
following the attacks of September 11.
    From our point of view, the program has been a major success and a 
catalyst for adoption of new technology in many ways. The private 
sector owns and operates the vast majority of critical infrastructure 
in the United States. Not only does the SAFETY Act protect these end-
users from liability for deploying technology, SAFETY Act designation 
and certification provides a level of assurance that a product or 
system meets high standards of safety and effectiveness, and works as 
intended.
    Our industry provides manufactured products, and well as systems 
integration services and software such as cybersecurity programs--all 
of which are potentially eligible for SAFETY Act designation or 
certification. In addition, owners or operators of critical 
infrastructure are making increasing use of the SAFETY Act designation 
for their comprehensive security programs, in which security technology 
plays a key role.
    According the SAFETY Act Office, during fiscal year 2017, 91 
applications were approved out of 133 submitted, taking an average of 
nearly 4 months to get through the process. The Office projects that 
approval of these technologies will support 87,000 jobs and 
significantly increase revenue for providers.
    We believe that Congress should work to ensure this important 
program continues, and importantly, is provided with the resources 
necessary to meet demand. Specifically, Congress should provide the 
SAFETY Act Office with a line item appropriation. This will provide 
budgetary certainty and program continuity, as well as help measure the 
return on investment.
    As far as the broader array of S&T programs, we are encouraged with 
recent signs the Directorate is strengthening efforts to better 
coordinate research and development (R&D) activities across DHS 
components and with industry stakeholders. Two years ago, when Dr. 
Brothers--who we are honored to have with us here today--was serving as 
under secretary, Integrated Product Teams (IPTs) were re-established to 
track and harmonize Department-wide research and development efforts 
between S&T and the components. The most recent IPT report for fiscal 
year is based upon only the second round of data gathering across DHS 
components, as well as a new process for involving operational 
components in the identification of capability gaps on which to focus 
R&D efforts. IPTs are aimed at sustaning a year-round process in which 
a designated component ``shepherds each gap from the identification of 
needs to the transition of solutions to close the gap'' according to 
the report.
    In gathering feedback from our member companies, a recurring theme 
was the importance of bolstering the business case for participation in 
S&T programs. Our members tell us that for S&T programs to be truly 
successful from their standpoint, each effort needs to be of championed 
by a DHS operational component, and accompanied by some form of 
commitment to make use of the technologies being explored if the 
Government is the intended end-user. The component should have some 
level of involvement in the project being executed from the beginning 
of the process, and prior to making any significant expenditures.
    There is a perception among some in the industry that S&T programs 
only infrequently significantly impact the operational or procurement 
activities of the DHS components, even with a successful engagement. 
For this reason, the choice may be made to devote more time and 
resources to focus primarily on relationships with the program offices 
on the component side.
    More involvement from the components up front could help address 
this perception, as well as efforts to increase industry awareness of 
S&T's new initiatives. Last month, S&T released its new Industry Guide, 
which very effectively summarizes current needs and programing, 
providing a future R&D outlook and linking industry to each of the ways 
to participate. We understand from discussions with personnel at S&T 
that they are working toward a providing a centralized on-line 
interface for industry to pull together information about opportunities 
that is currently listed in disparate locations.
    Successful engagement with industry also depends on the business 
model of companies that possess the expertise S&T is seeking. For many 
smaller companies, the topic often needs to be aligned with something 
they are already doing to justify the use of resources to apply, 
especially those with limited experience with grant proposals and 
similar processes. S&T should do everything possible to simplify and 
streamline the process to make it easier for companies that do not have 
this expertise to participate.
    Whether large companies or small, industry would benefit from 
making the process of working with S&T easier and less bureaucratic. 
This is one reason we are optimistic about plans to update and improve 
S&T's Long-Range Broad Agency Announcements (LRBAA) process. We 
understand that early next year S&T is planning to make significant 
changes to the process based on in industry feedback, as LRBAAs are 
initiated for 2019 and beyond. This includes a clarification of 
priorities that are linked directly to component needs, a simplified 
and streamlined application process, increased communications with 
program managers prior to submission, shortened review time as well as 
feedback to submitters. This feedback is particularly important for 
accepted proposals that are unfunded, to increase the chance of success 
with future submissions. Further, we think the evaluation process can 
be improved to the extent it can be aided by personnel with product 
development experience.
    As you know, the Government is challenged by the fact that 
technology is now evolving so quickly that it often outpaces 
traditional Government R&D and acquisition vehicles. Meanwhile, 
technology-based solutions are more important than ever to achieving 
DHS component missions. According to the 2017 S&T Innovation Strategy, 
among the Directorate's goals are to ensure that industry applies its 
resources toward meeting the demands of the Homeland Security 
Enterprise (HSE), as well as to ensure that technology end-users are 
more satisfied with products available on the commercial market.
    When it comes to the S&T R&D investment outlook for the next 4 
years, the security industry is poised to contribute significantly, 
particularly when it comes to priority areas like biometrics collection 
and utilization, robotics and autonomous systems, enhanced situational 
awareness, identity credentialing and access management, automated 
vetting and other technologies.
    SIA and S&T have maintained a memorandum of understanding (MOU) 
that facilitates information sharing on the adaptation of electronics-
related technological innovation for use at the Federal, State, and 
local level for homeland security applications. SIA is committed to 
continuing to do our part to facilitate the participation of our 
industry in helping meet HSE needs, and we look forward to working with 
S&T in new and more effective ways in the future as new leadership is 
appointed.
    On behalf of the Security Industry Association, I appreciate the 
opportunity to provide collective input from our industry on working 
with S&T. I will do my best to answer any questions you may have, 
however if there is any information requested I cannot provide today, I 
will be happy to work with our members to provide helpful responses.

    Mr. Donovan. Thank you, Mr. Parker.
    The Chair now recognizes Dr. Brothers for 5 minutes.

STATEMENT OF REGINALD BROTHERS, PRINCIPAL, THE CHERTOFF GROUP, 
    LLC, TESTIFYING AS FORMER UNDER SECRETARY, SCIENCE AND 
  TECHNOLOGY DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Brothers. Good morning, Chairman Donovan, and Ranking 
Member Payne, and distinguished Members of the committee. Thank 
you for the opportunity to testify before you today on the role 
and effectiveness of the Department of Homeland Security 
Science and Technology Directorate.
    We are now living in a post-industrial age with a globally 
interconnected web leading to a highly integrated world with 
supply chains that reach thousands of miles. Things that were 
previously done only by nation-states are now accomplished by 
sub-state actors, gangs, groups, and even individuals. Our new 
reality is an asymmetric threat environment, where individuals 
attack government institutions, and nation-states attack 
civilian infrastructure with little fear of retaliation, or 
even attribution.
    In the past, we discussed precision targeting of kinetic 
weapons. We are now discussing precision targeting of 
individuals and content on Facebook.
    Technology continues to accelerate with artificial 
intelligence, the internet of things, commercial drones, 
synthetic biology and quantum computing, all promising 
tremendous benefits to society, but also the potential to 
create complex and vulnerable threat surfaces. This global 
threat context informs us that the Nation needs its efficiently 
and consistently funded agile, adaptive, and relevant and rapid 
innovation engine to confront the current and future threats to 
our National security.
    DHS S&T has worked hard to focus on being highly relevant, 
shifting from the past focus on long-term basic research to 
near-term operational impact. S&T can now be an important asset 
for the Secretary as one of the few cross-departmental 
entities. S&T create a laboratory as a Department-wide resource 
for leading-edge data analytic and machine-learning software, 
where operational personnel work with S&T staff to evaluate and 
co-develop mission-centric solutions.
    This capability resulted in a tool, using advanced facial 
recognition that identified 475 child sex victims, leading to 
their rescue from abusers.
    In partnership with the New York Police Department and 
Metropolitan Transportation Authority, S&T installed a 
permanent test bed in New York City's Grand Central Terminal, 
an extension of our pilot demonstrations that successfully 
measured and mapped how and where a bioagent would be 
transported in the event of a terrorist attack in the subway 
system.
    S&T completed a Tucson border security operational exercise 
for Customs and Border Protection and ICE to evaluate border 
security technology capabilities, looking at Border Patrol, 
HIS, and industry.
    S&T also provided support of the response and recovery 
efforts from hurricanes Irma and Harvey with training, decision 
support software, and communications equipment.
    Starting in December 2015, S&T initiated the Silicon Valley 
Innovation Program as an effort to engage creative 
technologists from across the world in solving pressing 
problems in National security. At the present time, an 
awareness has been built with more than 1,000 start-ups, 
accelerators, and venture capitalists. Six topic calls have 
been published, ranging from internet of things security to 
airport passenger processing. Applications have been received 
from across the country and from the international community. 
To date, there have been nine Phase 1 awards, and four Phase 2 
awards, with the average time to award being only 45 days.
    For operational relevance, collaboration with users and 
industry is essential. The Cybersecurity Division has developed 
specific and relevant industry collaborations with the energy, 
financial, and automotive sectors.
    With the initiatives discussed above, S&T is demonstrating 
that it is working toward being the agile, adaptive, and rapid 
innovation engine I described. That said, there is a second 
context to consider when evaluating the potential of S&T to be 
effective. That second context is funding.
    If the fiscal year 2018 budget cuts were to remain in 
effect, there would be severe impacts to the ability of DHS S&T 
to do its job. For example, these budget cuts would reduce the 
funding of the Cyber Security Division by 20 percent, the 
Chemical Biological Division by approximately 60 percent.
    Cybersecurity is a challenge that is exponentially 
increasing with time. Observed malware has increased 40 times 
in the past 10 years. Observed attacks on critical 
infrastructure have increased 1.5 times in just the past 3 
years. With the emergence of the internet of things, autonomous 
vehicles, and other networked innovations, the threat surface 
of our National security are rapidly expanding.
    While awareness of the need for cybersecurity is 
increasing, the same is not necessarily true for chemical and 
biological security. Threats from chemical and biological 
threat agents, known and yet-unknown synthetic variations are 
real, and becoming more attractive to terrorist organizations. 
The National Biodefense Analysis and Countermeasures Centers, 
NBACC, and Chemical Security Analysis Center, CSAC, are 
recognized within the United States as the Nation's focal 
points for biological and chemical defense awareness and 
response. But the funding for these centers is threatened to be 
cut due to the fiscal year 2018 budget pressures, as well as 
the National Urban Security Technology Laboratory.
    Given the threats to National security that our current 
global context mandates, I am very concerned about the impact 
of these potential budget cuts. From my personal experience, I 
know that one of the most disruptive forces for technologists 
and innovation organization is uncertain and unstable funding. 
This challenge is magnified at DHS, because a threat 
environment can change on a frequent basis, which can call for 
rapid change of investment across the R&D portfolio to meet an 
immediate or near-term threat.
    However, while I am concerned, I also believe with the 
appropriate support of the Department and Congress, S&T can 
meet the challenges of the 21st Century.
    Thank you for the opportunity to be here, and I look 
forward to your questions.
    [The prepared statement of Mr. Brothers follows:]
                Prepared Statement of Reginald Brothers
                            November 7, 2017
    Good morning Chairman Donovan, Ranking Member Payne, and 
distinguished Members of the committee. Thank you for the opportunity 
to testify before you today on the role and effectiveness of the 
Department of Homeland Security's (DHS) Science and Technology 
Directorate (S&T). S&T's mission is to deliver effective and innovative 
insight, methods, and solutions for the critical needs of the Homeland 
Security Enterprise (HSE). Technology simultaneously enables both 
homeland security operators and malevolent actors and, as a result, has 
a significant and expanding impact on current and future threat 
environments. Having served in both the Departments of Defense and 
Homeland Security in senior leadership positions in science and 
technology, I'd like to start by giving my thoughts on the current and 
future threat environment as a way of providing context for the work of 
S&T.
    We are now in a post-industrial age, with a global interconnected 
web leading to a highly integrated world with supply chains that reach 
thousands of miles. Things that previously were done only by nation-
states are now accomplishable by sub-state actors, gangs, groups, and 
even individuals.
    For the period of the Cold War, it was possible to develop 
strategic nuclear weapons, stealth platforms and precision weaponry and 
retain a competitive advantage for a decade or more. However, with the 
hyper-connectedness of our world and the subsequent democratization of 
technology, it no longer possible to develop technology-based 
capabilities for National security that have any significant temporal 
advantage. The power to inflict harm is no longer based solely with 
nation-states. Our new reality is an asymmetric threat environment 
where individuals attack government institutions and nation-states 
attack civilian infrastructures with little fear of retaliation or even 
attribution. With easily accessible technologies such as cyber tools, 
drones, and potentially bio-weapons, it is possible for individuals to 
cause significant financial and physical damage as well as endanger 
human life. While we are used to discussions of precision targeting of 
kinetic weapons, we are now discussing precision targeting of 
individuals and content on Facebook. And technology continues to 
accelerate with artificial intelligence, the internet of things, 
commercial drones and satellite constellations, synthetic biology, 
blockchain and quantum computing all promising tremendous benefits to 
society but with also the potential to create devastating threat 
vectors and complex and vulnerable threat surfaces.
    What this context tells us is that the nation needs a sufficiently 
and consistently funded, agile, adaptive, relevant, and rapid 
innovation engine to confront the current and future threats to our 
National security. DHS S&T has worked hard to focus on being highly 
relevant--shifting from the past focus on long-term basic research to 
near-term operational impact. I think S&T is now an important asset for 
the Secretary as one of the few cross-Departmental entities. I'd like 
to now provide a few examples.
    DHS S&T created the Data Analytics Engine (DA-E) which is a 
Department-wide resource for leading-edge data analytic and machine 
learning technologies applied to Homeland Security mission sets. A 
laboratory has been developed where operational personnel can work with 
S&T staff to evaluate and co-develop technological solutions. Using 
this capability S&T helped NPPD deploy a social media capability to 
monitor publicly-available posts regarding critical infrastructure and 
public health. S&T delivered over 370 requests for help to emergency 
responders. The S&T DA-E provided solutions using advanced facial 
recognition tools that identified 475 child sex trafficking victims, 
leading to their rescue from abusers.
    At the direct request of the NYPD, conducted further experiments in 
identifying and characterizing live streaming social media sources that 
are affiliated with terrorist or other criminal activity. In addition, 
outside of New York, S&T will evaluate an even more extensive selection 
of social media analytical tools on behalf of I&A, CIS, and CBP for 
screening and vetting to detect, characterize, and locate source(s) of 
content of interest on social media platforms like Periscope and 
Facebook Live.
    In partnership with the New York Police Department and Metropolitan 
Transportation Authority (MTA), S&T installed a ``permanent'' testbed 
in New York City's Grand Central Terminal, an extension of S&T's pilot 
demonstrations successfully measuring and mapping how and where a 
bioagent would be transported in the event of a terrorist attack in the 
subway system.
    On behalf of TSA, S&T conducted three live-fire exercises to better 
understand Home Made Explosives (HME) capabilities and impacts on 
critical infrastructure.
    S&T completed the SkyNet Field Experiment, a Tucson Border Security 
Operational Exercise for CBP and ICE to evaluate border security 
technology capabilities linking Border Patrol, HIS, and industry. This 
field exercise will be used to further develop and deploy tactical data 
and video from Border Patrol sensors and Small UAS platforms. S&T 
developed sensors for Field Agents at the Tactical Operations Center, 
the Border Patrol eGIS system, and remote locations such as the Air 
Marine Operations Center. The FE was a series of scenarios centered on 
illegal entry by walkers, vehicles, and air platforms such as ULAs 
(Ultra Light Aircraft) in a Southern Border environment.
    S&T finalized the stand-up of the Common DHS UAS Test Site for use 
by S&T, FEMA, Coast Guard, CBP, and Secret Service for testing and 
training on UAS technologies. Unlike the counter UAS program this test 
site will allow for development of UAS technologies by DHS operational 
components. In addition, S&T will finalize counter UAS agreements with 
DOD to consolidate all UAS threat databases and libraries under the 
JIDO umbrella.
    S&T deployed the Counter Small Unmanned Aerial System (C-UAS) 
Advisory and Review Toolkit (C-SMART) to the Secret Service. C-SMART is 
a suite of computer models, databases, and analysis tools to analyze 
and plan C-UAS security postures for specific operations--this 
capability has helped Homeland Security Enterprise (HSE) partners 
understand the C-UAS threat, and optimize security posture plans. C-
SMART has been used in direct support of National Special Security 
(NSSE) and Special Event Assessment Rating (SEAR) identified events, 
such as the Inauguration and the Super Bowl.
    S&T deployed the Next Generation Incident Command Center (NICS) to 
even more emergency operational centers across the Nation and world. 
NICS is a web-based communication platform that enables responders on 
scene to share data and information using open standards, and request 
and receive assistance from remote experts in real-time. Developed in 
collaboration with MIT Lincoln Labs and the Coast Guard, S&T's NICS is 
in use by Coast Guard assets, Cal Fire, California OES, State of 
Victoria Australia, and NATO member and partner countries as part of 
NATO's Science for Peace and Security Project Advanced Regional Civil 
Emergency Coordination Pilot. S&T received funding from Australia and 
NATO for further development of this platform. S&T has made NICS 
available on GitHub, the world's leading software development platform.
    S&T transitioned the National Hurricane Program Technology 
Modernization HURREVAC-eXtended (HVX) to FEMA. HVX enables emergency 
managers to visualize hurricane risks associated with their specific 
evacuation zones, resulting in reliable and better-informed evacuation 
decisions. Two major improvements for HVX include providing a web-
enabled system to make training widely available to emergency managers 
on-line, as well as accessible via mobile phone--a FEMA requirement. 
The initial HVX Beta will complete its transition in May 2017. Once 
fully operational at FEMA in 2018, substantial savings are expected by 
avoiding unnecessary ``over'' evacuations and saving lives by 
preventing ``under'' evacuations. HVX makes it possible for web-based 
training allowing FEMA to train hundreds of thousands of emergency 
managers compared to less than 100 per year with the previous system, 
greatly reducing training costs and making it possible for greater 
numbers of emergency managers to gain critical skills in evacuation 
decision making.
    S&T developed the First Responder Jamming Exercise. The focus of 
the work are the technical and operational challenges of commercially 
available jamming technologies on first responder communications. This 
work done with NPPD, FEMA, Coast Guard, Los Angeles, Houston, Arizona, 
NYPD among others, and brings industry to the field to work through 
this growing threat. S&T and OGC have 16 limited purpose Cooperative 
Research and Development Agreements (CRADA) in place to test equipment. 
From last year's exercise S&T was able to develop a training module 
with FLETC which was used at the inauguration to train first responders 
to identify and mitigate use of jamming technologies.
    S&T also provided support to the response and recovery efforts from 
Hurricanes Irma and Harvey:
  <bullet> As of Sept 12, 9 S&T surge capacity volunteers had been 
        deployed. A system the S&T First Responders Group (FRG) and 
        NPPD collaborated on is preparing reports on the number of 
        businesses open and progress of business restoration. 
        Information from the reports is being shared to emergency 
        managers and others.
  <bullet> FRG has provided approximately $76K in communications 
        equipment to emergency managers in Georgia to support Irma 
        recovery. As of 11 September, the Program Manager, Shawn 
        McDonald, the Irma ATAK server is in full deployment more than 
        a hundred organizational users.
    <bullet> S&T is providing the Android Team Awareness Kit (ATAK) 
            technology and training to DHS components and responders 
            Supporting Hurricanes Irma that allows them to see where 
            and collaborate with responders and support personnel in 
            real-time as well as to plan and track multiple locations 
            where support/response is needed.
  <bullet> S&T has used a software program to develop aerial and 
        satellite photos that maps high-risk structures in Florida, 
        Georgia, and South Carolina to allow for better response and 
        recovery and made these photos available to FEMA and search and 
        rescue teams as well.
    <bullet> Flood APEX Map data sets have been completed for Georgia 
            and South Carolina as well as Florida, in support of Irma. 
            Flood apex has worked with ORNL to put together building 
            outlines datasets from high-resolution satellite imagery 
            for the GA and SC coastal counties. Previously completed 
            initial map data sets of building structure outlines for 
            Puerto Rico, the Virgin Islands, and south Florida and 
            assisted FEMA with publishing those data to the web for 
            broad community access as well as distribution to search 
            and rescue and volunteer teams.
  <bullet> S&T FRG is providing additional access to the HVX prototype 
        system, which allows emergency managers, FEMA response 
        officials and others to make timely and accurate evacuation 
        related decisions more efficiently.
    <bullet> 200+ FEMA, State, and local users have been given access 
            to HVX Prototype.
    <bullet> U.S. Army Corps of Engineers is a HVX user.
  <bullet> S&T is providing a social media monitoring tool and training 
        to allow NPPD analysts real-time updates on threats and issues 
        including health issues, people requesting medical assistance 
        or rescue, status of utilities and resources, and more, to 
        allow better allocation of resources and response.
  <bullet> The S&T-funded storm surge software (ADCIRC) provides 
        emergency managers early and accurate predictions about storm 
        surge and coastal flooding to allow them be make better 
        decisions on evacuations, positioning of resources, and other 
        response and recovery issues.
    <bullet> RADM Peter Brown is using the ADCIRC results to plan for 
            evacuation of USCG staff from Key West USCG housing. On 
            September 6, told Dr. Rick Leuttich, CRC leader, ``The 
            [ADCIRC] model was key to my decision regarding aircraft 
            protection in Puerto Rico and our COOP decision for Miami. 
            I'll be watching it with every update.''
  <bullet> The DHS S&T Coastal Resilience Center of Excellence (CRC) 
        worked closely with the Texas State Operations Center and NOAA 
        to provide modeling and storm surge predictions to better 
        enable prepositioning of resources, evacuations, and recovery. 
        The CRC ADvanced CIRCulation (ADCIRC) storm surge/coastal 
        flooding modeling team is providing models for Texas/Gulf of 
        Mexico. DA-E social media analysis tools: S& T's HSARPA Data 
        Analytics Engine (DA-E) continues generating reports from open-
        source and social media data. The tool, requested by NPPD, 
        monitors social media for emergent threats and augments 
        situational awareness regarding public health and critical 
        infrastructure. It provides automated, real-time monitoring of 
        social media data related to public health, communications, 
        dams, electricity, oil and natural gas and water. Urgent 
        requests for help (e.g., infant not breathing) were forwarded 
        to FEMA's National Watch Center. Updated reports and documents 
        were provided approximately every 3 hours to NPPD. As of August 
        28, nearly 4,000 posts had been collected and analyzed to 
        identify approximately 250 of the most relevant. DA-E also 
        established a new collection effort on August 28 to identify an 
        additional 100+ posts specifically focused on calls for help 
        and will be sending these posts to FEMA. The DA-E team 
        continues to analyze information related to infrastructure 
        protection interests and producing regular reports. HSARPA DA-E 
        has initiated transition of technical capabilities for 
        situation awareness regarding critical infrastructure using 
        open-source and social media data to NPPD.
                   silicon valley innovation program
    Starting in December 2015, DHS S&T initiated the Silicon Valley 
Innovation Program as an effort to engage creative scientists, 
engineers, and technologists from across the world in solving pressing 
problems in National Security. As of the present time, an awareness has 
been built with more than 1,000 start-ups accelerators and venture 
capitalists. Six topic calls have been published: IoT Security, K9 
Wearables, sUAS Capabilities, Enhancements to the Global Travel 
Assessments System (GTAS), and Enhancing CBP, Airport Passenger 
Processing, Financial Services Cyber Security Active Defense (FSCSAD). 
One hundred sixteen Phase I and 5 Phase II applications have been 
received. Applicants have been from across the country and 
international. There have been 9 Phase I awards and 4 Phase II awards 
to date.
                             collaborations
    For operational relevance, collaboration with users and industry is 
essential. The DHS S&T Cyber Security Division has developed specific 
and relevant collaborations with the Energy, Financial, and Automotive 
sectors:
  <bullet> Energy sector
    <bullet> Linking the Oil and Gas Industry to Improve Cybersecurity 
            (LOGIIC) is an on-going collaboration of oil and natural 
            gas companies and DHS S&T.
  <bullet> LOGIIC facilitates cooperative research, development, 
        testing, and evaluation procedures to improve cybersecurity in 
        petroleum industry digital control systems.
  <bullet> Financial sector
    <bullet> The Next Generation Cyber Infrastructure (NGCI) Apex 
            program will identify, test, evaluate, and deploy cutting-
            edge technologies to deter cyber attacks against the 
            financial sector. The program will concentrate on 
            delivering capabilities identified by the financial sector 
            to address five primary functional gaps
    <bullet> Stakeholders: U.S. Department of the Treasury, the 
            Financial Services Sector, the OTA Contractor and private 
            technology vendors.
  <bullet> Automotive Sector
    <bullet> The (Cyber Physical Systems Security) CPSSEC program 
            focuses include working collaboratively with automakers and 
            leading researchers to increase vehicle cybersecurity, 
            funding research projects to enhance auto cybersecurity, 
            and helping to upgrade the Federal Government's fleet of 
            automobiles.
    With the successes discussed above, it is clear that DHS S&T is 
working towards being the agile, adaptive, and rapid innovation engine 
I described. That said, there is a second context to consider when 
evaluating the potential of S&T to be effective.
    That second context is the breadth and depth of its mission and the 
level of appropriated funds. The S&T Budget for DoD for fiscal year 
2018 is approximately $14 billion while that of DHS S&T is 
approximately $600 million. DoD has a significant National laboratory 
infrastructure for evolutionary capability improvements and the Defense 
Advanced Research Project Agency funded at approximately $3 billion for 
revolutionary/disruptive improvements. In contrast S&T is asked to 
provide all R&D across both evolutionary and revolutionary domains with 
less than an order of magnitude of funding. While there is some cross-
pollination possible between the departments, in many cases mission 
specificity and affordability factors limit the ability of DHS 
components to procure and sustain DoD technologies. As such, I believe 
that S&T is underfunded for its stated responsibilities across all of 
the DHS mission sets.
    In fact, if the fiscal year 2018 budget cuts remain in effect there 
will be severe impacts to S&T ability to do its job. For example, these 
budget cuts will reduce the funding of the Cyber Security Division by 
20% and the Chemical Biological Division by approximately 60%.
    Cybersecurity is a challenge that is exponentially increasing with 
time. Observed malware has increased 40 times in the past 10 years. 
Observed attacks on critical infrastructure have increased 1.5 times in 
just the past 3 years. With the emergence of the internet of things, 
autonomous vehicles, and other networked innovations, the threat 
surfaces of our National security are rapidly expanding.
    While awareness of the need for cybersecurity is increasing, the 
same is not necessarily true for chemical and biological security.
    Threats from chemical and biological threat agents--known and yet 
unknown synthetic variations--are real, growing in potential and 
consequence, and becoming more attractive to terrorist organizations. 
As law enforcement organizations around the world make it more 
difficult to acquire materials to make explosives and gain access to 
quantities of firearms, chemical agents and eventually, biological 
agents will become the terror weapons of choice.
    Recently, researchers at the University of Alberta announced the 
artificial synthesis of Horse Pox, a close ``relative'' of Small Pox. A 
number of prestigious scientific journals have refused to publish the 
details of this accomplishment for fear that if a step-by-step 
procedure were to become available, those with skills in this 
technology could easily produce the human Small Pox virus and unleash 
this terror on an unsuspecting world population.
    After the attacks of 9/11, the U.S. Government recognized that 
defensive measures had to be implemented and maintained to protect 
civilians from these methods of terror attack. To this end, Congress 
and President Bush created a dedicated organization and facilities 
within the Department of Homeland Security to work closely with law 
enforcement and the intelligence community to identify growing threats, 
develop technologies to detect threats and support first responders if 
the unthinkable ever happened. In addition to establishing a 
specialized Federal and contractor workforce in chemical and biological 
defense technology development, two unique facilities, the National 
Biodefense Analysis & Countermeasures Center (NBACC) and Chemical 
Security Analysis Center (CSAC) were approved and funded by Congress. 
Each of these facilities is recognized within the United States as the 
Nation's focal points for biological and chemical defense awareness and 
response. These centers not only support many domestic Government 
agencies at the Federal, State, and local levels but also work closely 
with international partners in thwarting potential terrorists from 
using chemical and biological warfare agents. There is wide-spread 
agreement that the DHS capabilities in chemical and biological defense 
science and technology are unique and needed to provide a foundation 
for this critical area of National security. But the funding for these 
centers is being cut due the fiscal year 2018 budget pressures.
    Given the threats to National security that our current global 
context mandates, I am very concerned about the impact of the fiscal 
year 2018 budget cuts. From my personal experience I know that one of 
the most disruptive forces for a technologist and an innovation 
organization is uncertain and unstable funding. This challenge is 
magnified at DHS, because the threat environment can change on a 
frequent basis which can call for rapid change of investment across the 
R&D portfolio to meet the immediate threat. However, while I am 
concerned, I also believe with the appropriate support from the 
Department and Congress, S&T can meet the challenges of the 21st 
Century.

    Mr. Donovan. Thank you, Dr. Brothers.
    I now recognize myself for 5 minutes of questions.
    We have a unique opportunity here. We have representatives 
of first responders, academia, industry, and the insight from 
Dr. Brothers of having served in that agency for 3 years. I 
would just like to ask the panel if you could share with us, if 
there is one thing you would like to see going forward from 
S&T. You certainly deal with it on a daily basis. You study it. 
Industry creates it. Doctor, you have seen it in use. What 
would you like to see this agency do? What would you like to 
see this committee do? What would you like to see Congress do? 
Aside from funding, what direction would you like to see? What 
is needed for our country's security from S&T that, if you had 
the ability, what one thing, or two things would you like to 
see, from each of your perspectives?
    Chief.
    Mr. Rice. Thank you. I would say, just from my personal 
experience in working on Rad/Nuc projects and planning issues 
around the region, I think in the chemical sector and the bio 
sector, a lot of the technology and data integration that we 
have seen with Rad/Nuc, there is a lot of discussions about it, 
a lot of the conferences that we go to, a lot of the meetings 
we attend, and I would like to see the same amount of effort 
that we have seen in that Rad/Nuc integration of technology 
apply to the chem and bio world. It seems that that reach-back 
capability, a common operating picture, visuals for incident 
commanders, it has been breaking over the last couple of years 
for the Rad/Nuc forum.
    But when it comes to chem-bio, there is still some 
disconnect between the first responders and what command or 
emergency management might be seeing in the back. So I would 
like to see a greater effort in that regard, to bring those 
other threats up into the same level that the Rad/Nuc 
preparedness is.
    Mr. Donovan. Thank you for sharing that.
    Dr. Parker.
    Mr. Gerald Parker. Well, I would first, maybe, echo my 
colleague, that many of these, I would call it common operating 
picture-type things were actually called out HSPD-9 and HSPD-10 
quite some time ago, so that is something else that remains 
elusive, and it really should not continue to remain elusive.
    I think one thing, though, that I think S&T ought to be 
positioned so it can be a real driver of innovation. It needs 
to be unencumbered, and unfortunately, funding is part of that, 
and Dr. Brothers said it best. It is the budget uncertainty 
that is so disruptive. But it really needs to focus on a DARPA-
esque research and innovation that can really attract the best 
and brightest minds across the country, whether that is in 
universities, whether it is in a private sector, and it has got 
to be nimble and agile.
    I did make a comment about laboratory infrastructure in my 
opening remarks. Now, laboratory infrastructure, like the NBAF, 
NBACC, and the other laboratory, they are all necessary for the 
Homeland Security Enterprise. But I think one question is, are 
they best placed in DHS, where there may be threats of closure, 
or are they best placed in their lead Federal agency for--that 
may have responsibility, say, for animal health, or 
attribution, the FBI, or DOD command authorities? Those are 
policy questions.
    But S&T must be really agile, and innovative, and drive 
cutting-edge solutions that if this is impossible to do to meet 
near-term and longer-term needs. But we have got to be thinking 
about the unknown threats of the future.
    Mr. Donovan. Thank you, Doctor.
    Mr. Parker.
    Mr. Jake Parker. I guess from our perspective, you know, in 
our industry, the security industry, we see a lot of innovation 
happening in the private sector for the commercial market, and 
I think that the pace of that is such that a focus on 
operationalizing some of these advances and innovations for 
Government missions would be a really high-value activity, and 
a focus on that.
    If you look at the R&D outlook, many of those that S&T has 
put forward, a lot of those technology areas have seen really 
swift advances in the last year or 2. I think that, you know, 
often, you know, the Government mission requires something 
different, and the mission for first responders requires 
something slightly different, but it can be adapted for those 
uses, so----
    Mr. Donovan. Thank you, sir.
    Doctor.
    Mr. Brothers. Sure. I appreciate the question. I really do 
appreciate the question. I think, Ranking Member, you asked a 
question about, you know, some of my thoughts since having been 
served as the under secretary. Here is one of the big things I 
ran into.
    So S&T has to, obviously, report--I am sorry? Oh, it is not 
close enough? How is that? Better? Great.
    What I am saying is that S&T has to report very 
specifically, in terms of the kinds of spends it does across 
the portfolio. Dr. Parker mentioned a good point; that we need 
kind of a DARPA-esque kind of agility.
    One of the challenges, having served at DARPA and DOD, is 
that with the way S&T has to report early commitments and 
obligations of funding makes it difficult when things happen. 
So let me give you an example.
    When I was there we had, if you probably remember, the 
drone landed on the White House lawn. So all of a sudden, there 
is concern. Now, so I have got a portfolio where all my funding 
has been reported where I am spending all this money. But now, 
I have got to respond to an emerging threat. How do I do that?
    So the agility that Dr. Parker is talking about, and I 
applaud, I don't have the tools to make that happen, because I 
can't move money like that, even though there is an observed 
threat.
    So I think one of the things that we need help with is how 
do we understand your role as a short oversight, and the 
effective and efficient use of funding? How do we also give S&T 
the ability to be agile with this funding, when we have these 
emerging threats that we didn't necessarily predict, you know, 
the so-called black swan events happen? How do we handle that? 
It is an issue.
    I think more specifically, we have done a good job. S&T has 
done a good job of reaching out to industry through the Silicon 
Valley Program, for example. One of the tools for doing that, 
the investment vehicles, calls it other transactions authority, 
other transactions.
    This has come up a number of times. I think S&T does need 
the authority for that, as opposed to going through management, 
so I think that is something that S&T could definitely use as 
well.
    Something that is more inside the Department, but could be 
encouraged, is better integration into the acquisition process 
itself. Because I think you are probably familiar that with all 
S&T organizations, whether you are talking about DARPA, or the 
DOD laboratories, or S&T itself, fundamental challenge is what? 
It is the valley of death, as people call it, right? That 
valley of death is when you have to come up with a research 
prototype. A prototype has a lot of the capabilities you need, 
but it is not manufacturable at that point.
    How do you get that prototype, that concept in the actual 
acquisition process? That is a challenge all research 
organizations has. But I think it would be an encouragement to 
actually better integrate that into the Department's way of 
thinking, the Joint Requirements Council, for example, which is 
part of the way the Department is moving toward some of the 
more process-oriented ways of doing requirements that the 
Department of Defense has. How do you integrate these systems 
better?
    You mentioned the IPT process, and the IPT process, I 
think, is an important process, and it is, for the first time, 
really tried to give S&T an opportunity to focus on agreed-upon 
Department capability priorities. There are challenges there 
though, right? The challenges there are that that is a year-
long process. So that means that you do not really start 
working on those until the next year. So again, you have a 
delay.
    So how do we get more speed in this innovative process? 
That is a start, but we need to be able to handle these type, 
like I said, these emerging technologies, emerging threats in a 
much more rapid basis.
    So I think those are some of the areas I would encourage 
you to look at.
    Mr. Donovan. Well, I thank you all for your insight.
    My time is expired. The Chair now recognizes the gentleman 
from New Jersey, the Ranking Member, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Dr. Brothers, as you know, the Science and Technology 
Directorate is still operating without a permanent under 
secretary. How important is it that S&T have a strong 
leadership and clear direction in place, as it carries out its 
mission?
    Mr. Brothers. Sure, thanks for the question. I think it is 
very important, and the reason why I say that is even though 
there is fully capable leadership from career, as well as 
acting under secretary currently, typically, what you find 
happens is that changes don't happen, because everyone is 
waiting for the political appointee to actually come on board.
    Until that happens, you know, not a lot changes, and I 
think one of the challenges we have, as I think many of the 
panelists here have agreed: We have a very fluid threat 
environment, and we have to be ready to adapt to this. Without 
strong leadership on top, that is not really possible right 
now. So even though I think we have made good changes, I think 
we need leadership that is going to be able to keep up with the 
change that we are seeing in our threat environment.
    Mr. Payne. Let us see. Mr. Parker, would you like to weigh 
in on that?
    Mr. Jake Parker. Absolutely. I think that is, I would 
definitely agree with Dr. Brothers that, you know, there has 
definitely been, you know, the folks we have worked with, the 
S&T, I think, many of them are new in their positions in the 
last couple months. They have some great ideas about what they 
want to do, but they need, you know, leadership from the top to 
give them their green light to proceed, and so that is, I 
think, what Dr. Brothers was getting at.
    Mr. Payne. Dr. Parker.
    Mr. Gerald Parker. I totally agree. There is outstanding 
professionals there in the Department that are keeping things 
moving. But the--it is, again, it is the uncertainty. Who it is 
going to be, when are they going to come in? They are ready to 
roll up their sleeves and work very hard, but it is the 
uncertainty that is, it is really, I think, an issue.
    Mr. Payne. Possibly going in a totally different direction 
than they have been?
    Mr. Gerald Parker. Well, you know, I don't know that, but I 
think it is really more the uncertainty. I think Dr. Brothers 
did a whole lot to steady the ship, so to speak, in S&T. The 
command culture has greatly improved, and people are happy to 
come to work, and they are working hard, and you don't want to 
lose that momentum. We have threats that we face every day, and 
we can't wait 'til--we can't wait.
    Mr. Payne. Chief Rice.
    Mr. Rice. Thank you. Yes, I would have to agree with my 
colleagues here, that that leadership needs to be there, and it 
needs to be strong. On a personal level, and in our 
interactions with the folks down at NUSTL, it came as quite a 
shock that, you know, they may have been on the cut side of 
this. But, you know, they rolled up their sleeves, and they 
continue to work on their portfolios, and continue to 
contribute and make positive impacts for us on the responder 
side. So having that leadership in place so that they can 
reaffirm their mission and continue this work going forward is 
critical.
    Mr. Payne. OK. Dr. Brothers, when you first were named 
under secretary of science technology, you told me that one of 
your priorities was to energize the homeland security 
industrial base. What are some of the challenges that you 
experienced trying to attract businesses to participate in the 
homeland security industrial base?
    Mr. Brothers. You know, one of the biggest challenges--and 
Mr. Parker brought this up--with the new outreach to industry 
that you were mentioning. It is communication, right? I think 
one of the biggest challenges is that industry would, of 
course, like to solve these challenges. They don't necessarily 
know what those challenges are. They don't necessarily know who 
to talk to in a department, who to email. They don't 
necessarily know what the funding looks like.
    I think that is still an issue. It is not just unique to 
DHS/S&T. But I think one of the biggest challenges I have had 
was actually communicating what are our needs, who do you talk 
to, and what kind of funding is out there.
    Mr. Payne. OK. Let us see. As you know, the President's 
fiscal year 2018 budget submission was criticized for its 
massive cuts to the Science and Technology Directorate budget. 
What message did the budget send to the stakeholder community 
about the administration's commitment to research and 
development at S&T?
    Mr. Brothers. Well, I mean, the way I take that is that it 
is much lower priority, and I think as I mentioned in my 
opening statement, my concern is when we are in an environment 
where the threats are increasing, that, I think, is the wrong 
message. I think we need to be messaging that we see this 
research and development working with industry as essential for 
our defense. I don't think that is the message that the budget 
shows.
    Mr. Payne. Mr. Parker.
    Mr. Jake Parker. Yes, I would agree. I mean, the message 
would be uncertainty about the future, and that is the, you 
know, very concerning. Obviously, there are other things in 
that submission, too, really, the DHS, particularly FEMA grants 
that we would be very concerned with as well. But uncertainty 
would be the message that I would send.
    Mr. Payne. Dr. Parker.
    Mr. Gerald Parker. Yes, there is no doubt that the threats 
that we face are actually going to require a strong innovative 
science and technology approach. No doubt, our emergency 
operations and so forth are part of it as well, but we have a 
lot of unknown threats, and it will require the scientific 
engine of this country to address these threats. So the budget 
cuts to research and development, S&T does not send a good 
signal to the community that I come from.
    Mr. Payne. OK.
    Chief Rice.
    Mr. Rice. I agree with everything my colleagues said. I 
have no further comment at this time.
    Mr. Payne. Well, I see that my time has expired, so I will 
yield back.
    Mr. Donovan. The gentleman yields. The Chair recognizes the 
gentlewoman from New Jersey, Ms. Watson Coleman.
    Ms. Watson Coleman. Thank you, Mr. Chairman, and thank you 
all for being here today.
    I want to follow up, I guess, on both what the Chairman and 
the Ranking Member were talking about, but perhaps from a 
different perspective. As--and this has to do with the Trump 
administration's fiscal year 2018 budget cuts. I know some of 
those cuts have been restored through an appropriations 
process, but we still are grappling with some serious 
underfunding.
    You all have been asked by the Chairman on the first sense 
what is it that you think--what is it you would like for us to 
do? What is you think that the agency should do? What would be 
the priorities?
    I would like to know, from your perspective, based upon 
some the things that you said--agility, innovation, identifying 
the brightest and the best, working with private sector, et 
cetera. Tell me, from your perspectives, each of you, if you 
don't mind, what this budget does specifically to accomplishing 
those things that you said were vitally important, from an 
operations perspective.
    I will start with you, Chief.
    Mr. Rice. Specifically, what the S&T Directorate does for 
us, from an operations perspective, or was it a budgetary 
question?
    Ms. Watson Coleman. What is, yes. How does this budget 
impact those things that you are interested in in this 
directorate? Responding to the Chairman having said what would 
you think we need to do, and then you indicated some issues 
with regard to agility, and innovation, and, you know, to be 
able to move and respond to different threats.
    So I want to know, with the cuts that are proposed, so this 
budget that is proposed, what specifically impact would it have 
on where you think this directorate should be going?
    Mr. Rice. Yes, thank you, Congresswoman. So I think, as my 
colleague mentioned, you know, the emerging technology is going 
at such a rapid pace, as is the evolving threats, and that cuts 
to this program, and cuts to S&T will hamper our ability to 
keep up with those technologies and those threats, and as our 
equipment comes to reach its life expectancy, and as further 
threats evolve, we will start to lose pace with those, and not 
be on the cutting edge of preparedness and response.
    Ms. Watson Coleman. Thank you.
    Dr. Parker.
    Mr. Gerald Parker. Yes, I may mention something that hasn't 
been mentioned yet in regards to the cuts. There is also a 
proposed cut to the university Centers of Excellence effort. So 
what will that mean? I don't know, but as possibilities are 
decreased numbers of Centers of Excellence, decreased funding 
to that. So there is decreased university input as being part 
of the solution for homeland security.
    I think it has another effect, and that is affecting the 
next generation. I know one of things that we do at Texas A&M 
is really focus on, and we have been able to leverage having a 
Center of Excellence to make sure that we give opportunities to 
students and student interns, graduate students. So they get 
exposed to homeland security issues, and maybe take a career in 
homeland security. So I think this is also going to have an 
effect on the next generation, and diminish the number of 
people who take a career path in this area.
    As I said in my opening statement, and thankfully, some of 
the budget has been restored to save closure of the NBACC. But 
I can't imagine if that were closed, what our ability to be 
able to bring to bear microbial forensics and attribution for 
potential biological attack, or trying to differentiate a 
natural from a biological attack. That could be catastrophic.
    Ms. Watson Coleman. Thank you.
    Mr. Parker.
    Mr. Jake Parker. So I know, you know, much of what was 
proposed in the budget has been restored through the 
appropriations process, as my colleagues mentioned. But, you 
know, as proposed, as Dr. Brothers mentioned, the budget would 
have cut chem/bio by 60 percent, cybersecurity by 40 percent. I 
think that, I guess, the impact of that could be that you would 
slow the development of some really important technologies.
    I was just talking recently with one of our member 
companies, who was working on a project funded through the 
chem/bio portion, about--that would basically now enable smart 
buildings to detect chem and bio threats on an affordable 
basis. Something that our industry is working on, you know, 
generally, is building security. That would be, you know, a 
great addition there that could, especially in urban areas, 
that could be important also.
    On the cybersecurity front, there is a company that is 
involved in application security in mobile devices at a very 
high level. It is something that they could possibly be 
affected by, so----
    Ms. Watson Coleman. Thank you.
    Dr. Brothers.
    Mr. Brothers. So I think I can be general, and then get to 
some specifics. Mr. Parker just mentioned specific budget cuts 
to both cyber--well, to cyber and the bio division.
    So the bio division, they are interested in expanding the 
work they are doing in New York City to not just look in the 
subways, but also to look at a test-bed for bio security. The 
challenge is, how do you do this when your budget is being 
severely cut? How do you do that, starting kind-of a new 
initiative? How do you do that? It is a challenge.
    The cybersecurity division: I mentioned how they are 
reaching out to industry--financial, automotive sectors, energy 
sectors. Again, this all takes funding. They are doing this to 
increase the cybersecurity of our critical infrastructure. They 
are also reaching out to industry, this in Silicon Valley, 
Austin's, Boston's, District of Columbia's, et cetera, to reach 
out to the creative communities around the world. Again, need 
the funding for that.
    I think there are a number of challenges with--actually, I 
want to go back to what Dr. Parker said about the Centers of 
Excellence. Let me give you an example, if I can.
    I was at USC, and actually, before that, I was at LAPD. 
They have instituted something called predictive policing. In 
predictive policing, they were using technology to actually 
reduce crime by 14 percent in certain areas.
    I then went to USC, which was one of DHS's Centers of 
Excellence. What they showed was that using game theoretic 
techniques, they were able to improve that to almost 25 
percent.
    So the importance of university research shouldn't be 
understated at all. It is part of the S&T ecosystem--the 
laboratories, universities, Government, industry, et cetera. So 
I think these budget cuts impact that entire ecosystem. But in 
specific ways, you can look at programs that DHS has, S&T has 
instituted, and they get impacted directly.
    Ms. Watson Coleman. Thank you. Thank you. I see my time is 
up.
    Thank you, Mr. Chairman. I yield back.
    Mr. Donovan. The gentlewoman yields back. The Chair 
recognizes the gentleman from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for your testimony this 
morning.
    I thank my colleague, Ms. Watson Coleman, for addressing a 
lot of the things that I have in my questions, so I am going to 
give you an opportunity to elaborate on some of those topics, 
both chem/bio in particular, and cyber.
    Dr. Parker, I would like to just start with you, if I 
could. As you mentioned in your testimony, the President's 
budget request for fiscal year 2018 ends DHS's S&T funding for 
the state-of-the-art, one-of-a-kind biocontainment laboratory, 
the National Biological Analysis and Countermeasures Center, 
the NBACC facility at Fort Detrick, Maryland, and without 
transferring the responsibility for operating the facility to 
different a department or agency. So can you elaborate on the 
impacts on National security and law enforcement if this 
facility were to close?
    Mr. Gerald Parker. Yes, thank you for the question. The 
NBACC, and then specifically--actually, both missions of the 
NBACC, the threat assessment and the forensics, bioforensics 
mission was--actually, I had something to do with the original 
vision, back when I was at the United States Army Medical 
Research and Material Command, and then subsequently, in DHS's 
S&T. It was a strong collaboration between the FBI, law 
enforcement, the intelligence community, Defense, and then it 
was the Office of Homeland Security, before it became the 
Department of Homeland Security.
    So this laboratory facility has had a lot of thought that 
went into why it was needed, what capabilities it required to 
support what was a new science that was born out of the anthrax 
letter attacks, and that was microbial forensics. So it really 
is a very key mission in trying to determine who may be 
responsible for a biological attack, whether it is an 
individual, whether it is a terrorist, whether it is a nation-
state. Those are no-regret decisions, as well. So the science 
and everything associated with what is needed for a law 
enforcement investigation has got to be beyond reproach.
    So there was a lot of thought that went into this, and I 
certainly would not want to be in the National Command 
Authority, and we had to make decisions about retaliation, say, 
for a nation-state bioattack--that is not out of the realm of 
possibility today--unless I knew that science behind the 
microbial forensics was solid. It is a no-regret decision. That 
is the impact that we have with that laboratory potentially 
closing.
    Mr. Langevin. Thank you. I appreciate the answer, and I 
agree. I hope that that is going to be something that will be 
reversed as we go through the budget process, and get through 
the appropriations process. That is something that I hope is 
going to reverse itself, so, and so it is something that I will 
advocate for.
    Dr. Brothers, if I could thank you for being here. It is 
good to see you again before the panel. I always appreciate 
your candor, and your testimony. I just want to thank you for 
all your work securing the homeland, and all the things you 
have done to improve DHS.
    So DHS specifically, the Science and Technology Directorate 
has funded important cybersecurity research to protect the 
homeland. I know you had this conversation just a minute ago. 
For instance, though, S&T grants have played an important role 
in catalyzing research to catalog free and open-source projects 
that represent the core internet structure, infrastructure. 
Obviously, it is vital to understand which libraries are 
integral to critical infrastructure in order to ensure that 
they are adequately secured, and which is why the S&T support 
really has been so important.
    So needless to say, this research is just one example of 
many that the directorate supports in this emerging security 
domain. You know, just to further elaborate on the 
cybersecurity front, based on your experience, how would 
cutting-edge--how would cutting the cybersecurity research 
budget, as proposed by the Trump administration, affect the 
ability of DHS to secure the homeland?
    Mr. Brothers. So I think one of the challenges that we run 
into--and the panel, we have said this a couple times--is 
emerging threats coming out. One of the things that DHS/S&T, 
the Cyber Security Division as well, is try to think ahead, 
right? Think ahead.
    So here is an example, autonomous vehicles that I mentioned 
a little bit earlier. A number of years ago, the Cyber Security 
Division started working with industry to think about, what are 
going to be some of the challenges securing not just autonomous 
vehicles, but networked vehicles? So there are a lot of 
conversations about smart transportation, right? This is where 
you have got cars that are communicating with infrastructure to 
improve the transportation experience, if you will, right?
    The challenge is, what if you hacked into that? One of the 
things that Cyber Security Division did was to start thinking 
about that early on, and develop a consortium of automotive 
makers to try to address some of those issues.
    The same is true getting the oil and gas companies together 
in a program called LOGIIC to think through, what are some of 
the threats to the infrastructure?
    So the challenges you run into is that when you look at 
infrastructure that is privately owned, there is not necessary 
the motivation to start thinking ahead for these kinds of 
things. But the motivation is there for the Cyber Security 
Division and the rest of S&T.
    So in thinking about 20 percent budget cuts to the Cyber 
Security Division, those are the kinds of things that get 
impacted, is that ability to look ahead, the ability to invest 
moneys to understand what potential problems there will be with 
emerging technologies and develop mitigating solutions.
    Mr. Langevin. Thank you.
    Mr. Chairman, I have one brief last question. Would that be 
all right?
    So Dr. Brothers, one last question. So cybersecurity, 
obviously, is an international issue by its nature. How 
essential to securing our Federal networks and critical 
infrastructure is cooperative research and development with our 
international allies? What are some of the examples of 
successful projects that S&T has supported in that?
    Mr. Brothers. Yes, that is a great question. I think one of 
the things that we have to realize is that because of the 
hyperconnected nature that we live in, technology, this kind of 
engineering side of expertise is really democratized. Everyone 
has this. So we don't necessarily have the only best ideas. It 
is important that we reach out to all the people--our friends, 
our allies--to try to understand what some of the best ideas 
are out there.
    We have relationships. We have 13 bilateral relationships 
across the world, and we leverage all of those, in cyber as 
well as in some of the other areas as well to try to get some 
of the best advantages. We have actually started the idea of 
having, with the Netherlands, with having a mutual--with joint 
BAs, broad area announcements, meaning that we now work with 
the Netherlands to put out solicitations to the international 
community.
    So it is that kind of joint work that DHS is doing--DHS/S&T 
is doing to leverage the entire global ecosystem of creative 
thinkers.
    Mr. Langevin. Dr. Brothers, thank you very much.
    Thank you all, the witnesses, for your testimony, and Mr. 
Chairman, thank you for the latitude in being able to ask that 
last question.
    Mr. Donovan. Absolutely.
    We have such an advantage of having the four of you here. I 
just asked the ranking Chairman; I think we are going to just 
let each Member have 2 more minutes with you, just because we 
have you here. My one question to all you, because your 
testimony was incredible. Your efforts to protect our Nation, 
we are so grateful for.
    As you are doing this research, Doctor, as you were 
speaking about reaching out to others, how do we protect what 
we discover? Everything we create, the bad guys try to intrude 
on. So without divulging trade secrets or National security 
issues--and I promised my colleagues, we are only going to get 
2 minutes each, because we have to let you go. I know the chief 
has to get to another part of our Nation right now.
    The challenge I see, besides creating these great things 
you are speaking of, is how do we keep them to us? If you just 
have a thought about that, and then I am going to pass the 
questions on to my colleagues.
    Mr. Gerald Parker. Yes, I will just, I will start. You 
know, it is an excellent question. I am not sure if I have the 
best answer, but it is a must that we protect our science, and 
secure our science.
    I would actually maybe recommend that you talk to a very 
good colleague and friend of mine from the FBI, Special Agent 
Ed Woo, who has thought about this topic a lot. He used to 
think about it just in the terms of biosecurity, but it is 
really emerged into how do we--it is protecting our science. 
How do we do it securely? Perhaps, maybe universities have the 
biggest challenge, but it is an area that I know that Texas A&M 
takes very, very seriously, and----
    Mr. Donovan. I suspect you have to report on your research 
if you are using Federal monies for it----
    Mr. Gerald Parker. Of course.
    Mr. Donovan [continuing]. And do you protect your----
    Mr. Gerald Parker. Yes, of course. Of course
    Mr. Donovan [continuing]. Your research. Doctor, how do we 
protect this stuff?
    Mr. Brothers. It is hard. It is hard, and we all know about 
the cyber intrusions, that kind of thing. I think there are a 
number of people, including S&T, looking at different 
architectures for cyber defense. There are people looking at 
different ways of encrypting information, whether that 
information is in storage, transit, or in computation. That can 
help.
    But I think you also have to consider there are different 
paradigms, because of democratization of all this knowledge. 
You can't keep everything secret. So the question is: How do 
you continue to innovate even more rapidly? Because part of it 
is going to be not just keeping things secret, but it is going 
to be outpacing the innovation of our adversaries, and never 
stopping, and that is what requires the agility and 
adaptability we were talking about earlier.
    Mr. Donovan. Thank you, Doctor.
    I already violated my 2-minute rule. The Chair recognizes 
the Ranking Member from New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Dr. Brothers, during your term as under secretary of 
science and technology, you took a number of steps like 
reinstituting the integrated product teams to create formal 
channels of R&D coordination among DHS components. Can you 
elaborate on some of the obstacles the directorate faces when 
it comes to streamlining and coordinating R&D throughout the 
Department?
    Mr. Brothers. Sure. One of challenges just is a large 
organization, large bureaucracy, right? So you have a lot of 
different stakeholders. So the IPT, again, the Secretary signs 
that out. That is excellent, because that gives some top-level 
mandate to that.
    But then you have other processes. You have got the Joint 
Requirements Council is a process. It has to be approved 
through the DMAG, these kinds of things.
    So a lot of it is messaging and socialization, and I think 
those--it is all in culture, right? I mean, a lot of these big 
organizations, they struggle because of culture. You look at an 
organization like DHS has multiple cultures because of the way 
it was created. How do you create a joint culture that 
understands what S&T is doing in the larger context, as well as 
the context that each individual component has? I think that is 
one of the biggest problems. It is not so much the IPT process, 
or convincing people it is a good idea. It is how do they 
accept it, and how do you message to them how this is a good 
thing for them as well? It is a work in progress.
    Mr. Payne. Thank you.
    Mr. Chairman, I have more of a statement than another 
question. I think, as we have gone through this process, we see 
how important S&T is with the evolving threats that we have in 
this area, and with the world. I think it is incumbent upon us 
to continue to have the administration, whichever 
administration it is, understand how important this is, because 
when we are attacked, and God forbid, when we are, we are 
always sorry and remorseful after it. But if we can do the 
things that we need to do to thwart it, then we wouldn't find 
ourselves in that position.
    We have to get the administration, regardless of whatever 
administration it is, to take this seriously, and put in place 
a budget that is consistent, and would allow S&T to do the work 
and the type of things that it needs to do to make sure that we 
are successful in this area, and I yield back.
    Mr. Donovan. The gentleman yields, and I hope that your 
testimony didn't scare my colleagues, who left to go protect 
themselves somewhere in a bunker.
    I want to thank our witnesses, first of all, for your 
valuable testimony; second, for your contributions to the 
safety of our Nation. I would like to also to thank my 
colleagues for their questions.
    The Members of the subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. Pursuant to committee Rule VII(D), the 
hearing record will be held open for 10 days. Without 
objection, the subcommittee stands adjourned.
    Thank you all.
    [Whereupon, at 11:16 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
